Case 20-4254, Document 33, 04/07/2021,3072795, Pagel of 1
•j-.*

S.D.N.Y. -N.Y.C.
16-cv-6099
Nathan, J.
Fox, M.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 7th day of April, two thousand twenty-one.
Present:
Guido Calabresi,
Steven J. Menashi,
Circuit Judges,
John G. Koeltl,*
District Judge.
20-4254

In Re: Heena Shim-Larkin,
Petitioner.

Petitioner, pro se, has filed a petition for a writ of mandamus directing the district court to vacate
orders denying her requests for discovery, sanctions, and recusal. Additionally, Petitioner moves
for leave to proceed in forma pauperis. Upon due consideration, it is hereby ORDERED that the
motion for leave to proceed in forma pauperis is GRANTED for the purpose of filing the
mandamus petition. It is further ORDERED that the mandamus petition is DENIED because
Petitioner has not demonstrated that exceptional circumstances warrant the requested relief. See
Cheney v. US. Dist. Court for D.C., 542 U.S. 367, 380 (2004).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

* Judge John G. Koeltl, of the United States District Court for the Southern District of New
York, sitting by designation.

Appendix A

Case l:16-cv-06099-AJN-KNF Document 724 Filed 12/23/20
J-*

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

3- •

USDC SDNY
DOCUMENT
ELECTRONICALLY FILED
DOC ft;
DATE FILED: I 2/23/20
.

Heena Shim-Larkin,
Plaintiff,
16-cv-6099 (AJN)
-v—

MEMORANDUM
OPINION & ORDER

City of New York,
Defendant.

ALISON J. NATHAN, District Judge:
Plaintiff filed a motion to recuse the Undersigned pursuant to 28 U.S.C. § 455(a). Dkt.
No. 699. For the reasons explained below, that motion is DENIED.
I.

Background
The Court assumes familiarity with the background facts of this case. In February 2019,

Magistrate Judge Fox sanctioned the Defendant and its former attorney Scott Silverman for
making a representation as to its progress in providing discovery without substantial justification
or reasonable inquiry; the Magistrate Judge also reopened discovery to allow the Plaintiff to
depose an individual. Dkt. No. 450. Upon consideration of the record and arguments by both
parties, this Court found that the Magistrate Judge had clearly erred in imposing the sanctions
and that discovery should not be reopened. Dkt. No. 666 at 10-15. In September 2019, the
Magistrate Judge sanctioned the Defendant’s attorney, Dominique Saint-Fort, for making an
erroneous representation to the Plaintiff. Dkt. No. 540. This Court affirmed the Magistrate
Judge’s decision in part but reversed one of the sanctions—requiring Saint-Fort to distribute a
copy of the Magistrate Judge’s decision to dozens of her colleagues—as extreme and not
required by Federal Rule of Civil Procedure 11. Dkt. No. 666 at 15-18.

Appendix B
1

B-l

f

Case l:16-cv-06099-AJN-KNF Document 724 Filed 12/23/20 Page 2 of 3

«

In November 2020, Plaintiff filed the instant motion under U.S.C. § 455(a) for the
Undersigned to recuse herself. Dkt. No. 699.
II.

Discussion
28 U.S.C. § 455(a) requires that a federal judge “shall disqualify himself in any

proceeding in which his impartiality might reasonably be questioned.” This section requires
recusal where “an objective, disinterested observer fully informed of the underlying facts
[would] entertain significant doubt that justice would be done absent recusal[.]” United States v.
Lovaglia, 954 F.2d 811,815 (2d Cir. 1992) (citing Deluca v. Long Island Lighting Co., Inc., 862
F.2d 427, 428-29 (2d Cir. 1988)); see also United States v. Bayless, 201 F.3d 116, 126 (2d Cir.
2000). Recusal motions are committed to the sound discretion of the district court. See
Lovaglia, 954 F.2d at 815. In considering recusal motions, “judges must be alert to the
possibility that those who would question their impartiality are in fact seeking to avoid the
consequences of the judge’s expected adverse decision.” Id. (internal marks omitted) (citing FI.
R. Rep. No. 1453, 93d Cong., 2d Sess., reprinted in 1974 U.S.C.C.A.N. 6351, 6355).
Plaintiff sets forth reasons why she believes this Court erred in its decisions to reverse the
imposition of sanctions upon the Defendant and its attorneys and to determine not to reopen
discovery. She argues the Court ignored her fully developed arguments in favor of sanctioning
the Defendant and Mr. Silverman, which the Plaintiff notes should be construed liberally in light
of her pro se status, but considered arguments that the Defendant “merely mentioned.” Mem.
Law in Supp. Of Mot. to Recuse, Dkt. No. 700, at 7-10. She also notes that in reversing the
sanction against Saint-Fort, the Court stated that the Plaintiff did not cite an analogous case
involving such extreme sanctions and that the sanction would do little to serve deterrence goals
but failed to consider her citation to Rankin v. City ofNiagara Falls, 569 F. App’x 25 (2d. Cir.
2014), in which the Second Circuit affirmed a decision to refer an attorney who had made a
misrepresentation for professional discipline. Id. at 11-12. The Plaintiff further argues that the
Court exceeded its authority by and did not provide legal support for ordering the Plaintiff to
consolidate four motions into one motion of no more than fifteen pages. Finally, the Plaintiff
2

B-2

Case l:16-cv-06099-AJN-KNF Document 724 Filed 12/23/20 Page 3 of 3
'

contends that this Court has “[p]ervasive[ly] disregarded] binding legal authorities in favor of
Defendant” and has disregarded its obligations to construe pro se submissions liberally and to
apply appropriate legal standards. Id. at 15-18.
There is no basis for recusal. While Plaintiff argues against the Court’s decision on the
merits, there is no evidence or non-frivolous allegation of bias or improper judicial conduct from
which the Court’s “impartiality might reasonably be questioned.” 28 U.S.C. § 455(a). To the
extent that Plaintiff believes the Court erred in its decisions, she may exercise her rights to
appeal at the appropriate time.
III.

Conclusion
For the reasons stated above, Plaintiffs motion is denied. This resolves Dkt. No. 699.

The Court finds pursuant to 28 U.S.C. § 1915(a)(3) that any appeal from this order would not be
taken in good faith. See Coppedge v. United States, 369 U.S. 438, 445 (1962).

SO ORDERED.
Dated: December 23, 2020
New York, New York
ALISON J. NATHAN
United States District Judge

3

B-3

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 10 of 18
I

would have been any different if she had not filed her motion for sanctions. Plaintiffs
objections to Magistrate Judge Fox’s decision, Dkt. No. 594, are thus denied.
III.

THE MAGISTRATE JUDGE’S DECISIONS REGARDING SANCTIONS ARE
AFFRIMED IN PART AND REVERSED IN PART
A. The City’s Objections to the Magistrate Judge’s February 5, 2019
Decision Are Granted
1. Background
The convoluted underpinnings of the first sanctions dispute go back more than three

years. In April 2017, Plaintiff served her first set of interrogatories upon the City, requesting
identifying information for a number of individuals and purported practices of the City. As
relevant here, Ms. Shim-Larkin sought contact information for both named individuals and
individuals whom she described in general terms. She specifically sought contact information
for “PAA [Police Administrative Aid] Demuth, Jasmine” and “PAA Jasmine Demuth’s
supervisor who was at the 13th precinct next to PAA Demuth when Plaintiff was interacting with
PAA Demuth (Possibly a sergeant, Caucasian male).” Dkt. No. 165, Ex. 1. The City responded
to those interrogatories on August 3, 2017, asserting various objections and providing contact
information for some individuals, but not providing any information for “PAA Demuth,
Jasmine” and “PAA Demuth’s supervisor.” Dkt. No. 165, Ex. 2. The City’s former counsel in
this case, Scott Silverman, signed the Defendant’s response and certified, under Federal Rule of
Civil Procedure 26(g)(1), that he had made a reasonable inquiry in response to Plaintiffs request.
Id. at 9. Mr. Silverman has since withdrawn his appearance in this case, and the Magistrate
Judge granted that withdrawal. Dkt. Nos. 120, 131. On August 22, 2017, the City made
supplemental responses to Plaintiffs interrogatories. Dkt. No. 190, Ex. 2. Those responses
included contact information for PAA Jasmine Demuth. Id. at 4. Following an August 22

Appendix C

C-l
10

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 11 of 18
1

:~9

conference with the Magistrate Judge, the City provided additional responses on August 24.
Dkt. No. 132, Ex. 1.
Despite the City’s three sets of responses, Plaintiff continued to contend that the City had
not satisfied its discovery obligations. In December 2017, therefore, Plaintiff moved for
sanctions, arguing that the City had failed to comply with the Magistrate Judge’s August 22
orders. Dkt. Nos. 152, 153, 154.
The Magistrate Judge granted in part and denied in part Plaintiffs motion for sanctions.
Dkt. No. 319. The City objected and Plaintiff cross-moved for sanctions, and this Court
eventually affirmed the Magistrate Judge’s decision in part and denied the sanctions motion.
Dkt. No. 492. Importantly, in connection with the City’s objections, defense counsel Dominique
F. Saint-Fort filed a declaration dated August 3, 2018. See Dkt. No. 352. That declaration
described the City’s efforts to identify the individual Plaintiff identified as “PAA Demuth’s
supervisor.” Id.

10, 15, 17-18, 25-30. Saint-Fort recounted that the City’s efforts at

identifying this individual were hampered by the trickling manner in which Ms. Shim-Larkin
provided information. With the additional information Plaintiff provided, the City requested a
roll call of the Thirteenth Precinct on the relevant day and spoke with a number of employees,
and learned that only one the employees on duty fit the bill, Lieutenant Bekim Kalicovic.
In August 2018, even though discovery had formally closed, Plaintiff requested a roll call
for the Thirteenth Precinct for the day in question. Upon review, Plaintiff emailed defense
counsel stating that “PAA Demuth’s supervisor” could be Kalicovic. Dkt. No. 476 at 9.
However, Plaintiff had been provided the name of Lieutenant Kalicovic as early as March 2017.
Id. Plaintiff then moved for sanctions, seeking to (1) strike the purportedly “perjurious
declaration” submitted by the City on August 3, 2018, Dkt. No. 352, (2) obtain a Court order

C-2

ll

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 12 of 18

permitting her to depose Kalicovic at the City’s expense and provide her with various
documents, and (3) direct that certain facts be deemed admitted. Dkt. No. 372. Soon after, the
Magistrate Judge required the City to turn over photographs of Kalicovic and one other
individual, even though discovery had long closed. Dkt. No. 420 f 1.
The Court now turns to the decision on review here. On February 5, 2019, the
Magistrate Judge issued his decision resolving Ms. Shim-Larkin’s request for sanctions. Dkt.
No. 450. The Magistrate Judge sanctioned Defendant and attorney Silverman, who had
submitted the City’s original response to Plaintiffs first interrogatories. He concluded that upon
his review of Saint-Fort’s August 2018 declaration submitted along with Defendant’s opposition
to Plaintiffs motion for sanctions, Dkt. No. 379, the City had not begun investigation into “PAA
Demuth’s Supervisor’s” identity until October 2017. Dkt. No. 450 at 18. He thus held that
Silverman’s representation in August 2017 that he had made inquiry into his identity was made
without substantial justification or reasonable inquiry. Specifically, the Magistrate Judge
concluded that the “motion record establishes that Silverman’s certification was made without
substantial justification, because he did not make the requisite inquiry into the identity of the
PAA’s supervisor before signing the defendant’s August 2017 response to Shim-Larkin’s first set
of interrogatories.” Id. And he explained “[tjhis is clear because at paragraph 16 of the
declaration Saint-Fort submitted .. . she states that the defendant did not commence its
investigation into the identity of the PAA’s supervisor until October 2017, two months after
Silverman’s certification was made.” Id. He therefore ordered “the defendant Silverman
together shall . .. pay Shim-Larkin $1,000 ... [and] the reasonable expenses she incurred in
making the instant motion.” Id. at 25-26. The Magistrate Judge further reopened discovery to
permit Ms. Shim-Larkin to depose Kalicovic and ordered the City to produce certain documents

C-3

12

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 13 of 18

in advance of the deposition. Id. at 23-24. Finally, the Magistrate Judge declined to deem any
facts admitted or conclude that any of the Defendant’s submission constituted perjury. Id. at 2425. The City now objects. Dkt. No. 476.
2. The Magistrate Judge Clearly Erred
Because this is a non-dispositive matter, the Court may set aside the Magistrate Judge’s
decision only insofar as it “is clearly erroneous or is contrary to law.” Fed. R. Civ. P. 72(a). The
Court recounted this standard above, and does not repeat it here. Although this is a high standard
for an objector to satisfy, the Court concludes that the City has met it here and reversal is
warranted.
To begin, the City is correct that the Magistrate Judge sanctioned Silverman without
affording him notice or an opportunity to be heard. In September 2017, Silverman had moved to
withdraw from the case, Dkt. No. 121, and the Magistrate Judge granted his motion over
Plaintiffs objection on October 19, 2017. Dkt. No. 131. Silverman therefore had not been
involved in the case for more than one year when the Magistrate Judge issued his decision. He
thus had no notice that sanctions could be levied against him. Indeed, Ms. Shim-Larkin’s motion
did not even seek sanctions against Silverman; the Court imposed them sua sponte. See Dkt. No.
372. This failure to notify Silverman and provide him an opportunity to be heard violated his
due process rights and is thus clearly contrary to law, and the Magistrate Judge’s decision
warrants reversal for this reason alone. See Wilson v. Citigroup, N.A., 702 F.3d 720, 724 (2d Cir.
2012) (concluding that the District Court “abused its discretion in imposing the severe sanction
of attorney’s fees without making an explicit finding that [counsel] acted in bad faith or
affording [counsel] adequate notice and an opportunity to be heard on the matter,” and reversing
that decision); United States v. Seltzer, 227 F.3d 36, 42—43 (2d Cir. 2000) (ordering district court

C-4
13

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 14 of 18

to provide attorney with “specific notice of the conduct alleged to be sanctionable and the
standard by which that conduct will be assessed, and an opportunity to be heard on the matter”
before imposing sanctions (cleaned up)).
Next, the Magistrate Judge rested his decision on an incomplete view of the factual
record. Rule 26(g) requires that discovery responses be signed by an attorney of record and
specifies that, “[b]y signing, an attorney or party certifies that to the best of the person's
knowledge, information, and belief formed after a reasonable inquiry.” And the Advisory
Committee’s Notes further explain that this inquiry must be “reasonable under the
circumstances” and is judged by a “totality of the circumstances” test. However, as the
Defendant has explained and defense counsel has now represented in multiple declarations, see,
e.g., Dkt. No. 477, Silverman did take reasonable steps to identify the person Plaintiff described
as “PAA Demuth’s supervisor” before signing the August 2017 interrogatory responses.
Specifically, he spoke with NYPD personnel on at least two occasions at the Thirteenth Precinct
to determine the identify of this individual. See id. ^ 9. It was only after Ms. Shim-Larkin
provided additional identifying information that the City was able to narrow down the
individuals who could fit the bill and identify Lieutenant Kalicovic. Given the extraordinary
scope and length of discovery in this manner, the self-contradictory and vague descriptions
provided by Ms. Shim-Larkin in her first interrogatory and subsequently, see, e.g., Dkt. No. 476
at 22-23, the highly tenuous connection Lt. Kalicovic bears to this litigation even accepting
Ms. Shim-Larkin’s narrative as true, and the City’s good faith efforts, the Court concludes as a
matter of law that the City acted reasonably under the Federal Rules, and its conduct does not
warrant the significant sanction imposed. The Magistrate Judge thus clearly erred in imposing
these sanctions. See Vaigasi v. Solow Mgmt. Corp., No. 11 Civ. 5088 (RMB) (HBP), 2016 WL

C-5
14

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 15 of 18
>

616386, **18-20 (S.D.N.Y. Feb. 16, 2016). And given these conclusions, it follows that
discovery should not be reopened to permit Ms. Shim-Larkin to depose Lt. Kalicovic.
In sum, although the bar for reversal is high, the Court is “left.. . with the definite and
firm conviction that a mistake has been committed.” Nike, Inc. v. Wu, 349 F. Supp. 3d 346, 353
(S.D.N.Y. 2018) (cleaned up); see also Arista Records, LLC v. Doe 3, 604 F.3d 110, 117 (2d
Cir. 2010). The Court thus grants Defendant’s objections to Magistrate Judge Fox’s order, Dkt.
No. 476, and vacates that order to the extent it is inconsistent with this opinion.
B. The Magistrate Judge’s September 16, 2019 Decision, Dkt. No. 540, is
Affirmed in Part and Reversed in Part
1. Background
The Magistrate Judge’s next relevant opinion arises out of the same factual background.
In August 2018, Plaintiff moved for sanctions because of a purportedly “perjurious declaration”
submitted by the City and the City’s alleged failure to provide her certain documents. Dkt. Nos.
372-374. In support of Defendant’s opposition, defense counsel, Saint-Fort, submitted a
declaration in which she included a timeline into the City’s investigation into Plaintiffs first set
of interrogatories, in which Plaintiff sought contact information for “PAA Demuth's supervisor
who was at the 13th precinct next to PAA Demuth when Plaintiff was interacting with PAA
Demuth (Possibly a sergeant, Caucasian male).” Dkt. No. 165-1 at 1. In that declaration, SaintFort made the following statement: “during [an August 8, 2018 ‘meet and confer’] conversation,
Plaintiff stated for the first time that the individual she seeks to identify could have been a
Captain or a higher ranking individual that would not be on the roll call, but would be located on
the command log.” Dkt. No. 379 If 38. That statement was included in the City’s memorandum
of law. Dkt. No. 378 at 9. Defense counsel made the same representation in a subsequent
conference. See Dkt. No. 557 at 4.

C-6

15

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 16 of 18

In February 2019, the Magistrate Judge granted in part and denied in part Plaintiffs
August 2018 request for sanctions. See Dkt. Nos. 372-374, 450. Magistrate Judge Fox noted
that Plaintiff informed Defendant through a January 9, 2018 reply brief and a July 20, 2018
declaration that “PAA Demuth's supervisor” could have held the rank of lieutenant or higher.
See Dkt. No. 450 at 21. Defendant objected, and in Ms. Saint-Fort’s declaration, she repeated
the statement that during an August 8, 2018 meet and confer conversation with Plaintiff,
“Plaintiff stated for the first time that the individual she seeks to identify could have been a
Captain or a higher ranking individual that would not be on the roll call, but would be located on
the command log.” Dkt. No. 468 f 38; see also Dkt. No. 467 at 10.
In June 2019, Magistrate Judge Fox issued an order directing Saint-Fort to “show cause,
in writing, why repeating and relying on the debunked factual contention referenced ... in her
declaration [dated February 27, 2019] and the memorandum of law that was submitted to the
Court, in opposition to Shim-Larkin’s ‘Supplemental Notice of Motion for Sanctions’ did not
violate F. R. Civ. P. 11(b).” Dkt. No. 510. Saint-Fort filed a declaration outlining the sequence
of events leading to the February 2019 declaration and a memorandum of law arguing that she
should not be sanctioned. Dkt. Nos. 512, 513. She argued that her representation in the
February 2019 filings was a mistake, she did not act in bad faith, and that Plaintiff was not
prejudiced by the error. Id.
On September 16, 2019, the Magistrate Judge sanctioned Saint-Fort. He noted that “the
plaintiff advised the defendant, through her January 9, 2018 reply brief and July 20, 2018
declaration ‘that the PAA’s supervisor could hold the rank of lieutenant or higher including the
rank of captain because the supervisor wore a white shirt.’” Dkt. No. 540 at 17 (quoting Dkt.
No. 450 at 21). Magistrate Judge Fox therefore ordered Ms. Saint-Fort to pay $500.00 to the

C-7

16

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 17 of 18

Clerk of Court and distribute a copy of his decision to “1) the acting corporation counsel [in the
New York City Law Department], 2) Saint-Fort’s supervisor, and 3) every attorney within the
New York City Law Department, Labor & Employment Law Division.” Dkt. No. 540 at 22. He
further “reprimand[ed] Saint-Fort for her misconduct.” Id. And he ordered her to “file an
affidavit, with the Clerk of Court, certifying that she complied with this order” within 14 days.
Id. The City then sought a stay of Magistrate Judge Fox’s decision, and this Court granted a
stay. Dkt. No. 547.
2. The Magistrate Judge’s Decision is Affirmed in Part
Rule 11(c)(4) provides that “[a] sanction imposed under this rule must be limited to what
suffices to deter repetition of the conduct or comparable conduct by others similarly situated.”
The Court does not find clear error in the Magistrate Judge’s sanction requiring Ms. Saint-Fort to
pay $500 to the Clerk of Court, as that is reasonably understood as serving the goals of specific
deterrence. The same is true of the Magistrate Judge’s formal reprimand. Ms. Saint-Fort
repeatedly made a representation to the Court as factually true when the Court had rejected that
very representation. Even though the procedural history of this case is complex, Saint-Fort’s
explanations for this oversight, such as this being a “sincere mistake” and a product of
“negligence,” do not excuse the conduct. See Dkt. No. 557 at 13.
However, the Magistrate Judge’s remaining sanction—requiring Saint-Fort to distribute a
copy of the decision to dozens of attorneys with whom she works—cannot be upheld. Rule 11
requires courts to impose the narrowest possible ground for sanction as possible in this
circumstance. This extraordinary sanction goes too far, and is not required, given the under
sanctions, to serve the goals of either general or specific deterrence. Indeed, neither the
Magistrate Judge nor Ms. Shim-Larkin cite any analogous case in which such an extreme

C-8
17

Case l:16-cv-06099-AJN-KNF Document 666 Filed 09/28/20 Page 18 of 18

sanction was imposed. The sanction would cause Saint-Fort significant reputational harm, yet
the Court discerns little if any service of the broader goals of specific and general deterrence.
The Court therefore grants the City’s objections as to this particular sanction, and reverses the
Magistrate Judge’s second sanction. See Dkt. No. 540 at 22 (“(2) Saint-Fort shall distribute a
copy of this order to: 1) the acting corporation counsel, 2) Saint-Fort’s supervisor, and 3) every
attorney within the New York City Law Department, Labor & Employment Law Division.” The
Court however denies the City’s remaining objections and affirms the remainder of the
Magistrate Judge’s decision.
IV.

CONCLUSION
For the reasons stated above, the Court denies Plaintiffs objections at Dkt. No. 536. The

Court denies Plaintiffs objections at Dkt. No. 586. The Court denies Plaintiffs objections at
Dkt. No. 594. The Court grants Defendant’s objections at Dkt. No. 476. The Court grants in
part and denies in part Defendant’s objections at Dkt. No. 557.

SO ORDERED.
Dated: September 28, 2020
New York, New York
ALISON J. NATHAN
United States District Judge

C-9

18

Case l:16-cv-06099-AJN-KNF Document 458 Filed 02/13/19 Page 1 of 3
:-r“i

r
■JU~y ; S

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

n

\

!ii
!!
I
if

i

Heena Shim-Larkin,

FEB 1 3'TO '

J.V

I
J

I

Plaintiff,
16-cv-6099 (AJN)
-v-

MEMORANDUM
OPINION AND ORDER

City of New York,
Defendant.

ALISON J. NATHAN, District Judge:
In its September 27, 2018, order, the Court, inter alia, granted Defendant’s objection to
Magistrate Judge Fox’s April 30, 2018, order regarding Plaintiffs twelfth, thirteenth, and
fourteenth discovery requests. Dkt. No. 385. On September 28, 2018, Plaintiff moved for
reconsideration of the Court’s order. Dkt. No. 386. On October 9, 2018, Plaintiff filed a second
motion for reconsideration. Dkt. No. 394.

1

“A motion for reconsideration should be granted only when the [moving party] identifies
an intervening change of controlling law, the availability of new evidence, or the need to correct
a clear error or prevent manifest injustice.” Kohl Beth Yechiel Mechil ofTartikov, Inc. v. YLL
Irrevocable Tr., 729 F.3d 99, 104 (2d Cir. 2013) (internal quotation marks omitted). This
standard is stringent since “reconsideration of a previous order is an extraordinary remedy to be
employed sparingly in the interests of finality and conservation of scarce judicial resources.”
Seoul Viosys Co., Ltd. v. P3 Int’l Corp., 16-CV-6276 (AJN), 2018 WL 401511, at *2 (S.D.N.Y.
Jan. 12, 2018) (quoting In re Health Mgmt. Sys., Inc. Secs. Litig., 113 F. Supp. 2d 613, 614
(S.D.N.Y. 2000)).

Appendix D
1

D-l

Case l:16-cv-06099-AJN-KNF Document 458 Filed 02/13/19 Page 2 of 3

Having reviewed Plaintiffs two motions for reconsideration and the parties’ briefing, the
Court finds that oral argument is unnecessary to the resolution of these motions. The Court
further concludes that Plaintiff has failed to meet the “strict” standard of a motion for
reconsideration. Analytical Surveys, Inc. v. Tonga Partners, L.P., 684 F.3d 36, 52 (2d Cir.
2012), as amended (July 13, 2012). This resolves docket items numbers 386, 394, and 402.
Furthermore, given the relevance of the Court’s September 27, 2018, order to several of
Plaintiffs previous motions for sanctions, Dkt. Nos. 259, 271, and 278, the Court hereby
administratively denies these motions without prejudice. An administrative denial does not pass
any judgment on the merits of a motion. Instead it serves, as here, to ensure that issues before
the Court are cleanly presented, avoiding duplication and confusion. Plaintiff will have leave to
refile as described in further detail below. This resolves docket items numbers 259, 271, and
278.
Defendant previously requested a stay of docket items 259, 271, and 278, which Judge
Fox denied in his July 16, 2018, order, Dkt. No. 334. Defendants objected to Judge Fox’s July 16
order. Dkt. Nos. 349, 350. In light of the above, that objection is denied as moot. Plaintiff
opposed Defendant’s objection, in a motion styled a “cross-motion for sanctions.” Dkt. No. 355.
Plaintiffs motion is also administratively denied without prejudice to refile as further described
;

below. This resolves docket items 349, 350, and 355.
Within three weeks of the date of this order, Plaintiff may file a single motion addressing
any issues from docket items 259, 271, 278, and 355 that remain in light of the Court’s
September 27, 2018, order and the instant order. This motion shall be no more than fifteen pages
in length and shall fully comply with the requirements of Local Rule 7.1. Failure to comply with
these rules or the filing of duplicative motions may result in the dismissal of those motions.

2

D-2

!

Case l:16-cv-06099-AJN-KNF Document 458 Filed 02/13/19 Page 3 of 3
i

SO ORDERED
Dated: February \ , 2019
New York, New York

' All SON J. NATHAN
United States District Judge

!
i

!

i
!

I

I

I

!
!

3

D-3

:

Case l:16-cv-06099-AJN-KNF Document 385 Filed 09/27/18 Page 7 of 11

The Plaintiffs cross-motion for sanctions (Dkt. No. 239) related to the Defendant’s
March 30,2018 objections is also denied. The declarations that the Defendant produced were
substantially justified, and payment of costs or paying for a deposition is not warranted. In
addition, the Plaintiff has not met the standard for discovery sanctions on the basis of spoliation
because she has demonstrated neither that the NYPD had an obligation to preserve its CCTV
video records for any amount of time nor that any NYPD or City employee acted with a culpable
state of mind. See Klipsch Grp., Inc. v. ePRO E-Commerce Ltd., 880 F.3d 620, 628 (2d Cir.
2018) (outlining sanctions standard). Finally, there is no justification why a previous jury’s
decision not to believe Phillip Hirsh’s testimony on a different issue in a different case would
warrant the Court imposing deposition costs on the Defendant in this case. For these reasons, the
cross-motion for sanctions is denied.
The Defendant’s July 5, 2018 objection (Dkt. No. 322) is denied. Magistrate Judge Fox
did not clearly err in deciding that the Defendant should be required to sign interrogatories
pursuant to Rule 33(d) because the Rule itself does not expressly state whether an answer to an
interrogatory that identifies documents must be written under oath, and the Second Circuit has
not considered the issue. It was therefore reasonable for Judge Fox to choose either to require a
signature or not require a signature from the Defendant. The objection is thus denied.
The Plaintiffs cross-motion for sanctions (Dkt. No. 325) relating to the Defendant’s July
5, 2018 objection is denied. There is no basis to conclude that the Defendant’s objections were
brought in bad faith or for an improper purpose. The cross-motion is thus denied.
B.

Defendant’s May 14,2018 Objection (Dkt. No. 283) Is Granted

The Defendant objects to Magistrate Judge Fox’s April 30, 2018 order, in which Judge
Fox ordered the Defendant to respond to the Plaintiffs twelfth, thirteenth, and fourteenth

Appendix E
7

E-l

Case l:16-cv-06099-AJN-KNF Document 385 Filed 09/27/18 Page 8 of 11

discovery requests. The Court concludes that the Magistrate Judge’s order was clearly erroneous
because it did not acknowledge or rule on the Defendant’s argument that the requests contained
in the Plaintiffs twelfth, thirteenth, and fourteenth discovery requests are irrelevant to the
parties’ claims and defenses - an argument this Court concludes is correct and should preclude
the Defendant from being forced to respond to the discovery requests.
Pursuant to Federal Rule of Civil Procedure 26, “[p]arties may obtain discovery
regarding any nonprivileged matter that is relevant to any party’s claim or defense and
proportional to the needs of the case.” Fed. R. Civ. P. 26(b)(1). A court “must limit the
frequency or extent of discovery ... if it determines that... the proposed discovery is outside
the scope permitted by Rule 26(b)(1).” Fed. R. Civ. P. 26(b)(2)(C)(iii).
Having reviewed the requests contained in the Plaintiffs twelfth, thirteenth, and
fourteenth sets of discovery requests, as well as the Plaintiffs explanations of why each request
is relevant, P. Opp., Dkt. No. 286, the Court concludes that none of the requests seeks
information that is relevant to any party’s claims or defenses in this action.
For example, Document Request 1 from the Plaintiffs twelfth set of discovery requests
seeks “[a]ll ‘the books and records of the New York City Department of Citywide
Administrative Services and other departments of the city government’ which bases Abigail
Arevalo’s belief, as indicated in Abigail Arevalo’s verification dated march 26, 2018.” Dkt. No.
251-2, at 1. In other words, the Plaintiff seeks any books or records that Abigail Arevalo
consulted when she attested that the last known phone number for Mary Ng is (646) 790-0855.
See D. Letter, Dkt. No. 251-1, at 1 (stating the contact information for Mary Ng, which Abigail
Arevalo attests to via Verification). A list of the books and records checked by Ms. Arevalo in

8

E-2

Case l:16-cv-06099-AJN-KNF Document 385 Filed 09/27/18 Page 9 of 11

locating Mary Ng’s last known contact information is not itself relevant to this case, nor is it
likely to provide evidence that is relevant in this case.
The Plaintiff provides several arguments that she says make the request relevant, but
none of these reasons shed any light on how the books and records used by Abigail Arevalo
could lead to admissible information in this case.1 First, the Plaintiff argues that she has received
documents suggesting that Leticia Vargas’s phone call to 311 was transferred to the Department
of Parks and Recreation and that, based on this information, she believes that the Defendant “did
not provide the identi[t]y of such DPR employee in order to prevent Plaintiff from acquiring
more evidence which is favorable to Plaintiff, in bad faith.” Diet. No. 260, at 9. The Plaintiffs
argument amounts to speculation that the Defendant and the multiple City employees who have
provided verification explaining how they determined that Mary Ng received Leticia Vargas’s
311 call were lying to conceal an employee of the Department of Parks and Recreation who, if
found, would provide the Plaintiff with heretofore unknown relevant information. The Plaintiffs
requests amount to no more than a fishing expedition and are not reasonably calculated to
produce relevant information to the Plaintiffs claims. More important, none of this explanation
is relevant in any way to the Plaintiffs discovery request for all records searched by Abigail
Arevalo, who only verified Mary Ng’s last known phone number. As a result, the Court cannot
surmise any reason why the documents reviewed by Abigail Arevalo would likely lead to
information relevant to this case, and the Court must therefore limit the Plaintiff from seeking
such irrelevant and burdensome information under Rule 26.

1 Rather than make arguments in her opposition to the Defendant’s objections, the Plaintiff merely
identifies previously filed documents in which the Plaintiff had discussed the relevancy of her discovery requests
and assumes the Court will reread each document and construct the Plaintiffs argument for her. See P. Opp. at 5-7.
The Plaintiff is admonished that in future filings, she must make all applicable arguments in any filing before the
Court or the Court will not consider the argument.

9

E-3

Case l:16-cv-06099-AJN-KNF Document 385 Filed 09/27/18 Page 10 of 11

The Court has undertaken a similar inquiry regarding the remaining discovery requests
contained in the twelfth, thirteenth, and fourteenth sets of discovery requests and the alleged
relevance provided by the Plaintiff. The Court concludes that none of these requests seeks
information or evidence that is relevant to any claims or defenses in this action. As a result, it
was clearly erroneous for the Magistrate Judge to overlook the Defendant’s argument that these
discovery requests sought irrelevant information outside the appropriate scope of discovery and
to allow the Plaintiff to proceed with these discovery requests. The Court will therefore
reconsider the Magistrate Judge’s order of April 30, 2018 and conclude that the Defendant
should be precluded from having to respond further to the Plaintiffs twelfth, thirteenth, and
fourteenth sets of discovery requests.
IV. Conclusion
The Defendant’s objections of December 5, 2017 are denied. This resolves docket
number 155. The Plaintiffs December 11, 2017 cross-motion for sanctions is denied. This
resolves docket number 160. The Plaintiffs February 2, 2018 objections are denied. This
resolves docket number 196. The Plaintiffs March 27, 2018 objections are denied. This
resolves docket number 233. The Defendant’s objections of March 30,2018 are denied. This
resolves docket number 236. The Plaintiffs April 6, 2018 cross-motion for sanctions is denied.
This resolves docket number 239. The Defendant’s May 14, 2018 objection is granted. The
Defendant is not required to respond to the Plaintiffs twelfth, thirteenth, and fourteenth sets of
discovery requests. This resolves docket number 283. The Defendant’s July 5, 2018 objection is
denied. This resolves docket number 322. The Plaintiffs July 6,2018 cross-motion for
sanctions is denied. This resolves docket number 325.

10

E-4

Case l:16-cv-06099-AJN-KNF Document 385 Filed 09/27/18 Page 11 of 11

Chambers will mail a copy of this order to the pro se litigant and note its mailing on the
public docket.
SO ORDERED.
Dated: September
,2018
New York, New York

/ al^son j. Nathan
United States District Judge

11

E-5

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 1 of ??} —

USDC SONY
_
DOCUMENT
BWCmMCAUCf Fill©}

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

poo #• _

•X

i DATE FR®

HEENA SHIM-LARKIN,

W7l?„

Plaintiff,
v.
MEMORANDUM AND ORDER
CITY OF NEW YORK,
16-CV-6099 (AJN) (KNF)
Defendant.
X
KEVIN NATHANIEL FOX
UNITED STATES MAGISTRATE JUDGE
BACKGROUND
In the February 5, 2019 Memorandum and Order, the Court noted that, in opposing the
plaintiffs motion for sanctions, Docket Entry No. 372, the defendant contended through its
attorney, Dominique F. Saint-Fort (“Saint-Fort”), that “it only learned from [the plaintiff] on
August 8, 2018, that the PAA’s supervisor could hold the rank of captain or higher,” based upon
a factual contention that was undermined by the record generated during the pretrial discovery
phase of the litigation, which showed that the plaintiff “advised the defendant, through a January
9, 2018 reply brief, Docket Entry No. 181, and a July 20, 2018 declaration, Docket Entry No.
340, that the PAA’s supervisor could hold the rank of lieutenant or higher including the rank of
captain because the supervisor wore a white shirt.” See Docket Entry No. 450, at 21. On
February 27, 2019, in opposition to the plaintiffs “Supplemental Notice of Motion for
Sanctions,” Docket Entry No. 434, the same erroneous factual contention was repeated by SaintFort in her declaration, Docket Entry No. 468,

38-39, and the defendant’s memorandum of

law, Docket Entry No. 467, at 6. By an order dated June 20,2019, the Court, sua sponte.
1

Appendix F

F-l

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 2 of 22

directed Saint-Fort “to show cause, in writing, why repeating and relying on the debunked
factual contention [that the defendant only learned from the plaintiff on August 8,2018 that the
PAA’s supervisor could hold the rank of captain or higher] in her declaration and the
memorandum of law that was submitted to the Court, in opposition to [the plaintiffs]
‘Supplemental Notice of Motion for Sanctions,’ did not violate Fed. R. Civ. P. 11(b).” Docket
Entry No. 510. In response to the Court’s June 20, 2019 order, Saint-Fort submitted her June 27,
2019 declaration, Docket Entry No. 512, and memorandum of law, Docket Entry No. 513.
SAINT-FORT’S JUNE 27,2019 DECLARATION, DOCKET ENTRY NO. 512
In her June 27, 2019 “Declaration of Assistant Corporation Counsel Dominique SaintFort in Response to Order Dated June 21, 2019,11,1 Saint-Fort declares that, on September 13,
2018, the defendant opposed the plaintiffs August 30,2018 motion for sanctions in which the
plaintiff “argued that sanctions were warranted for Defendant filing what she characterized as a
‘perjurious declaration’ and for Defendant’s decision to not provide her with the documents she
had requested for the first time after discovery was closed.” Saint-Fort states:
6. In support of [the defendant’s] opposition, I submitted a declaration which
included a timeline of Defendant’s investigation into Plaintiffs First Set of
Interrogatories, wherein Plaintiff sought contact information for “PAA Demuth’s
supervisor who was at the 13th precinct next to PAA Demuth when Plaintiff was
interacting with PAA Demuth (Possibly a sergeant, Caucasian male).” ECF Dkt.
No. 165-1, at 1.
7. In my September 13, 2018 declaration, I stated that during an August 8, 2018
“meet and confer” conversation with Plaintiff, “Plaintiff stated for the first time that
the individual she seeks to identify could have been a Captain or a higher ranking
[sic] individual that would not be on the roll call, but would be located on the
command log.” ECF Dkt. No. 379, p8.
8. That statement was also made in the memorandum of law in opposition to
Plaintiffs August 30, 2018 motion for sanctions. See ECF Dkt. No. 378, at 9.

No order was issued in this action by the Court on June 21, 2019. The order to show cause is dated June 20,2019.

2

F-2

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 3 of 22

9. On September 20, 2018, Plaintiff filed a letter requesting a conference pursuant
to Local Civil Rule 37.2 seeking to compel Defendant to produce certain pictures
of police officers and contact information for police officers. See ECF Dkt No
383.
10. On October 4, 2018, Defendant responded by letter to Plaintiffs conference
request, again describing a timeline of Defendant’s investigation into her request
for contact information for “PAA Demuth’s supervisor.”
11. In that letter, I again stated that during an August 8, 2018 “meet and confer”
conversation with Plaintiff, “Plaintiff stated for the first time since the start of this
litigation that the individual she seeks to identify could have been a Captain or a
higher ranking [sic] individual that would not be on the roll call, but would be
located on the command log.” ECF Dkt. No. 392, at 2.
12. Plaintiffs request for a conference was granted, and the conference was held
on November 30, 2018. See ECF Dkt. Nos. 411, 412.
13. During the conference, the Court discussed Plaintiffs September 20, 2018
letter, and the undersigned stated that Plaintiff “just provided” me with information
that “PAA Demuth’s Supervisor” could have been a captain or higher. See ECF
Dkt. No. 421, at 3.
14. On January 13, 2019, Plaintiff filed a supplemental motion for sanctions,
seeking to compel Defendant to produce (1) certain privileged communications
between the New York City Law Department and its client the NYPD; (2) a copy
of Captain Bekim Kalicovic’s memo book for August 19,2015; and (3) the original
unredacted August 19, 2015 command log for the Thirteenth Precinct. See ECF
Dkt. Nos. 434-436.
* * *

17. On February 5, 2019, Magistrate Judge Fox granted in part and denied in part
Plaintiff s August 30,2018 request for sanctions. See ECF Dkt. Nos. 372-374,450.
18. In that Order, Magistrate Judge Fox noted that Plaintiff had informed Defendant
through a January 9, 2018 reply brief and a July 20, 2018 declaration that “PAA
Demuth’s supervisor” could have held the rank of lieutenant or higher. As such,
Defendant knew or should have known that the person Plaintiff was seeking to
identify could have held the rank of lieutenant or higher. See ECF Dkt. No. 450, at
21.
19. The undersigned, upon reading Plaintiff s January 9,2018 reply brief, however,
had not understood the Plaintiffs statement to be one of clarification but rather one
of continued dispute. Specifically, in her January 19, 2018 reply brief, Plaintiff
argues that Defendant mischaracterized an October 16, 2017 “meet and confer”
phone conversation and omitted statements that Plaintiff made about the rank she
thought “PAA Demuth’s Supervisor” might be. I recall Plaintiff stating that “PAA
Demuth’s supervisor” was wearing a white shirt, and thus was likely a Lieutenant.
See ECF Dkt. No. 164, at 5. In contrast, Plaintiff asserts that during October 16,
2017 meet and confer she in fact informed Defendant that “PAA Demuth’s
supervisor” could have held the rank of lieutenant or higher. See ECF Dkt. No. 181,
at 5.
3
F-3

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 4 of 22

20. Given the undersigned’s understanding of what transpired during the October
17, 2017 call, I did not read Plaintiffs January 9,2018 reply brief as offering new
information, but rather her claim of what she said during that conversation, which
Plaintiff offered to the Court to support her claims that sanctions were warranted.
21. Similarly, when Plaintiff cited to her January 9,2018 reply brief in her July 20,
2018 declaration, see ECF Dkt. No. 340, ^ 74, the undersigned again did not take
Plaintiffs statement to be providing new information, but rather her claim of what
she said during that conversation, which Defendant disputed.
22. Thereafter, on February 5,2019 this Court issued an Order where it specifically
noted that Defendant knew or should have known as of January 9,2019 or July 20,
2019 that the person Plaintiff was seeking to identify could have held the rank of
lieutenant or higher. I acknowledge that I did not read Magistrate Judge Fox’s
February 5, 2019 Order closely enough on this point.
23. On February 27,2019, Defendant filled its opposition to Plaintiffs January 13,
2019 supplemental motion for sanctions. See ECF Dkt. Nos. 467-468.
24. In the undersigned’s declaration in support of that opposition, I repeated the
statement that during an August 8, 2018 “meet and confer” conversation with
Plaintiff, “Plaintiff stated for the first time that the individual she seeks to identify
could have been a Captain or a higher ranking [sic] individual that would not be on
the roll call, but would be located on the command log.” ECF Dkt. No. 468, ^ 38.
25. That statement was also made in the memorandum of law in opposition to
Plaintiffs supplemental motion for sanctions. See ECF Dkt. No. 467, at 10.
26. It was a sincere and inadvertent error on my part to repeat the aforementioned
paragraph given Magistrate Judge Fox’s February 5,2019 Order.
27. As explained in the preceding paragraphs, this particular statement was part of
a timeline of Defendant’s investigation into the person Plaintiff identified as PAA
Demuth’s supervisor, which I had been using in all my declarations where the issue
regarding the identity of “PAA Demuth’s Supervisor” was raised.
28.1 provided this chronology to provide consistency in explaining the timeline of
Defendant’s, investigative steps to the Court and to aid the Court so it would not
have to refer back to prior papers. See ECF Dkt. No. 378, at 9; ECF Dkt. No. 379,
T1 38; ECF Dkt. No. 392, at 2; ECF Dkt. No. 421, at 3; ECF Dkt. No. 467, at 10;
ECF Dkt. No. 468, % 38.
29. My failure to edit the statement by removing the phrase “for the first time” was
a mistake and I apologize to the Court for that misstep.
30. My use of this statement in my February 29,2019 declaration and memorandum
of law was not made with any malice or intent to deceive the Court.
DEFENDANT’S MEMORANDUM OF LAW, DOCKET ENTRY NO. 513
In the “Defendant’s Memorandum of Law in Support of the Declaration of Assistant
Corporation Counsel Dominique F. Saint-Fort Dated June 27,2019 and in Response to this
4

F-4

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 5 of 22

Court’s June 20,2019 Order,” Saint-Fort asserts that she “should not be sanctioned, because the
inclusion of the statement at issue in my February 27, 2019 declaration and memorandum of law
was a sincere mistake, was not made in bad faith, and there has been no resulting prejudice to
Plaintiff.” Saint-Fort contends:
I acknowledge that I did not read Magistrate Judge Fox’s February 5, 2019 Order
closely enough on this point. The repetition of the statement that Plaintiff provided
such information about “PAA Demuth’s supervisor” “for the first time” in my
February 27, 2019 declaration was a sincere mistake on my part given Magistrate
Judge Fox’s February 5, 2019 Order. That statement was part of a timeline of
Defendant’s investigation into the person Plaintiff identified as PAA Demuth's
supervisor, which I had been using in all of my declarations where the issue regarding
the identity of “PAA Demuth’s Supervisor” was raised. I provided this chronology, to
provide consistency in explaining the timeline of Defendant’s investigative steps to the
Court and to aid the Court so it would not have to refer back to prior papers. See ECF
Dkt. No. 378, at 9; ECF Dkt. No. 379, \ 38; ECF Dkt. No. 392, at 2; ECF Dkt. No. 421,
at 3; ECF Dkt. No. 467, at 10; ECF Dkt. No. 468, f 38. My failure to edit the statement
by removing the phrase “for the first time” was a mistake, for which I apologizes [sic]
to the Court. See Declaration of ACC Dominique F. Saint-Fort, dated June 27, 2019,
1HI 26, 29-31, 35-36. This statement was not made in bad faith, for any improper
purpose, or with any intent to deceive the Court and thus does not warrant sanctions.
Saint-Fort contends that “my inclusion of the repeated statement at issue amounts to negligence”
not bad faith, and the repetition “was done in an effort to be consistent in describing Defendant’s
investigative efforts in identifying the person describes [sic] as ‘PAA Demuth’s supervisor.’ The
failure to edit the statement following the February 5, 2019 Order was a sincere mistake and not ■
borne out of bad faith.” According to Saint-Fort,
unlike the plaintiffs counsel in rCentauri Shipping Ltd, v. Western Bulk Carriers KS.
528 F. Supp. 2d 197 (S.D.N.Y. 2007)] - who after learning that he knowingly signed
a false statement and made no effort to correct it - immediately following my
understanding that Plaintiff was seeking the identity of an individual who held a rank
higher than Lieutenant she commenced a search for said individual, even though
discovery was already closed at that point. My conduct is therefore less egregious than
that of plaintiffs counsel in Centuari [sic], clearly militating against the imposition of
any sanction. Ultimately, even after review of the Thirteenth Precinct’s command log
and roll call including Lieutenants, Captains, and higher ranking [sic] officials, and
5

F-5

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 6 of 22

providing Plaintiff with a photo array of Bekim Kalicovic and Steven Heilman,
Defendant remains unable to definitively identify the individual Plaintiff describes as
“PAA Demuth’s Supervisor.” Additionally, discovery had already closed on January
23, 2018, prior to the February 5, 2019 Order. As such, sanctions are not warranted
because Plaintiff has not been prejudiced in any way. Given the lack of bad faith and
lack of prejudice to Plaintiff, I requests [sic] that no sanctions be levied against me.
FINDINGS OF FACT
On December 4, 2017, the plaintiff made a motion for sanctions, Docket Entry No. 152,
asserting, inter alia: “Defendant did not provide any information concerning, ‘PAA Demuth’s
supervisor who was at the 13th precinct next to PAA Demuth when Plaintiff was interacting with
PAA Demuth.’” Docket Entry No. 153, p. 5. On December 18, 2017, in opposition to the
plaintiffs motion, Saint-Fort stated in her declaration:
9. On October 132, 2017, during a meet and confer phone conversation regarding
Plaintiffs interrogatories, Plaintiff explained for the first time that the individual
she identified as “PAA Demuth’s supervisor” was wearing a white shirt on August
19, 2015 when she interacted with him at the Thirteenth Precinct, and thus, was
likely a Lieutenant.
* * *

12. Defendant then commenced its investigation into the aforementioned
information by requesting the schedule of the Thirteenth Precinct on August 19,
2015 and following up on the summer meals program coordinated by the
Department of Parks and Recreation and the Department of Education.
13. This investigation is ongoing.
Docket Entry No. 165,

9,12 & 13.

On January 9, 2018, the plaintiff filed a reply, in which she contended:
Also, Defendant mischaracterized/omitted Plaintiffs statements made in Oct 16
phone conversation. Plaintiff stated during the phone call that she does not know
the title of PAA Demuth’s supervisor but he must be a sergeant or higher than
sergeant, could be lieutenant, also could be higher than lieutenant. Plaintiff states
2 The meet and confer telephone conversation occurred on October 16,2017, not October 13,2017. See Docket
Entry No. 129-1.

6

F-6

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 7 of 22

that he can be a captain or higher than lieutenant. Additionally, Plaintiff never stated
that DOE employee was a representative of a summer lunch program. Plaintiff still
does not know whether she was a representative of a summer lunch program or not
and said so during the Oct 16 phone conversation. Plaintiff stated during the phone
call that DOE employee talked about summer lunch program to Plaintiff and the
DOE employee stayed well after the summer lunch program hour was passed.
Additionally, Saint-Fort declared (ECF #165 12) that Defendant commenced its
investigation by “requesting the schedule of the Thirteenth Precinct on August 19,
2015” but “requesting the schedule of the Thirteenth Precinct on August 19,2015”
apparently could have been done without purported new information provided by
Plaintiff on October 16, 2017.
Docket Entry No. 181, p.5.
The plaintiff stated in her January 9, 2018 declaration in support of the reply:
18. And Defendant’s Oct 13 letter (ECF #129-4 and Defendant's Exhibit C-page 3)
caused 83-minute-phone call on October 16, 2017.
19. Saint-Fort also admitted in her email dated October 16, 2017 that the phone
conversation was "this morning".
20. Saint-Fort’s email dated October 16, 2017 was attached at ECF #129-1.
21. Defendant alleged that it could not provide interrogatory answer regarding PAA
Demuth’s supervisor and Department of Education (“DOE”) employee because
Plaintiff gave new necessary information for search “only recently” (ECF #164,
page 8).
22. But in any of Defendant’s First, Second, Third Response or Oct 13 letter,
Defendant did not state its purported reason for failure to provide information
regarding PAA Demuth’s supervisor and DOE employee, or requested more
information to Plaintiff.
23. Plaintiff stated during the phone call that she does not know the title of PAA
Demuth’s supervisor but he must be a sergeant or higher than sergeant, could be
lieutenant, also could be higher than lieutenant. Plaintiff states that he can be a
captain or higher than lieutenant.
Docket Entry No. 182, ^ 18-23.
On July 20,2018, the plaintiff filed a cross-motion for sanction, Docket Entry No. 338.
In support of that motion, the plaintiff submitted her July 20,2018 declaration, stating:
74. As explained in Jan 9, 2018 reply brief (ECF 181, page 5), Plaintiff informed
that he could be a lieutenant or higher than lieutenant, such as a captain, and it was
because he was wearing a white shirt, which indicates that his rank is lieutenant or
higher.
7
F-7

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 8 of 22

75. Plaintiff also explained this during the Oct 16, 2017 phone call, when SaintFort asked how Plaintiff knows that he is PAA Demuth’s supervisor.
76. See NYPD Patrol Guide2, attached as Exhibit 4 (“POLICE OFFICER ...
SHIRT NYPD dark blue, ... SERGEANT ... SHIRT, LONG SLEEVE Dark blue,
... SHIRT, SHORT SLEEVE (OPTIONAL) Dark blue, ... LIEUTENANT ...
SHIRT, LONG SLEEVE White, ... SHIRT, SHORT SLEEVE (OPTIONAL)
White,... CAPTAIN Uniform is the same as required for lieutenant, ...”)
77. In NYPD Patrol Guide, there is no indication that Captain’s shirt color is
different from Lieutenant.
Docket Entry No. 340, ^ 74-77.
In opposition to the plaintiffs cross-motion for sanctions, Saint-Fort stated in her August 30,
2018 declaration:
10. On October 13, 2017,3 during a meet and confer phone conversation regarding
Plaintiffs interrogatories, Plaintiff explained for the first time that the individual
she identified as “PAA Demuth’s supervisor” was wearing a white shirt on August
19, 2015, when she interacted with him at the Thirteenth Precinct, and thus, was
likely a Lieutenant.
11. During that same October 13, 2017 conversation, Plaintiff also explained that
the individual she identified as “The female employee of New York City
Department of Education who visited Tompkins Square Park on or about August
18,2015,” was a representative of a summer lunch program provided to children at
Tompkins Square Mini Pool.
12. Armed with this clarifying information, Defendant then commenced an
investigation about into [sic] the identity of the individual by requesting the
schedule of the Thirteenth Precinct on August 19, 2015 and following up on the
summer meals program coordinated by the Department of Parks and Recreation
and the Department of Education.
Docket Entry No. 352,

10-12.

3 The meet and confer telephone conversation occurred on October 16,2017, not October 13, 2017. See Docket
Entry No. 129-1.

8

F-8

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 9 of 22

On August 30, 2018, the plaintiff made a motion for sanctions. Docket Entry No. 372.
On September 13, 2018, in opposing the plaintiffs motion for sanctions, Saint-Fort filed a
memorandum of law, in which she contended:
During the August 8, 2018 “meet and confer” conversation, Plaintiff stated for the
first time that the individual she seeks to identify could have been a Captain or a
higher ranking [sic] individual that would not be on the roll call, but whose name
would be located on the command log. Based on this new information, Defendant
requested the command log of the Thirteenth Precinct for August 19, 2015 to
ascertain if any captains or higher ranked [sic] individuals were indicated as being
present at the Thirteenth Precinct during the two hour [sic] period identified by
plaintiff.
Docket Entry No. 378, p. 9.
Saint-Fort also filed her declaration, dated September 13,2018, in which she stated:
15. On October 16, 2017, during a meet and confer phone conversation regarding
Plaintiffs interrogatories, Plaintiff explained for the first time that the individual
she identified as “PAA Demuth’s supervisor” in interrogatory No. 1, wearing a
white shirt on August 19, 2015, when she interacted with him at the Thirteenth
Precinct, and thus, was likely a Lieutenant. Defendant had initially responded to
this Interrogatory by objecting to vague and ambiguous nature of the request.
16. Armed with this clarifying information as to the potential identity of “PAA
Demuth’s supervisor”, Defendant then commenced an investigation to discern the
identity of this individual by requesting the August 19, 2015 schedule for the
Thirteenth Precinct.
Docket Entry No. 379, ffl] 15-16.
On February 5,2019, the Court granted, in part, and denied, in part, the plaintiff s motion
for sanctions, Docket Entry No. 372, finding, in pertinent part:
With respect to the excerpts of the 13th precinct's Command Log disclosed to ShimLarkin, die defendant contends that Shim-Larkin revealed to it only on August 8,
2018, that the PAA's supervisor could have held the rank of captain or higher and,
that as a result, that officer’s identity would not be found in the precinct’s roll call
but would be found in the precinct’s Command Log. This August 8,2018 revelation
prompted the defendant to seek the 13th precinct's Command Log for August 19,
2015. The defendant's contention that it only learned from Shim-Larkin on August
8, 2018, that the PAA’s supervisor could hold the rank of captain or higher is
9

F-9

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 10 of 22

undermined by the record in this case. The record establishes that Shim-Larkin
advised the defendant, through a January 9,2018 reply brief, Docket Entry No. 181,
and a July 20, 2018 declaration, Docket Entry No. 340, that the PAA’s supervisor
could hold the rank of lieutenant or higher including the rank of captain because
the supervisor wore a white shirt. Inasmuch as the precinct’s Command Log is a
document likely within the defendant’s possession, custody and control and the
defendant is fully aware of the contents of its own log, it is unclear why, if acting
in good faith, the defendant delayed from January 2018 to August 2018 to seek,
obtain and search the 13th precinct’s Command Log to determine whether the
PAA’s supervisor might have held the rank of captain or higher, as Shim-Larkin
had advised it in January 2018.
Docket Entry No. 450, p. 21.
On January 13, 2019, the plaintiff made a supplemental motion for sanctions. Docket
Entry No. 434. On February 27, 2019, in opposing the plaintiffs motion for sanctions, SaintFort filed a memorandum of law, in which she contended:
During the August 8, 2018 “meet and confer” conversation, Plaintiff stated for the
first time that the individual she seeks to identify could have been a Captain or a
higher ranking [sic] individual that would not be on the roll call, but whose name
would be located on the command log. Based on this new information, Defendant
requested the command log of the Thirteenth Precinct for August 19, 2015 to
ascertain if any captains or higher ranked [sic] individuals were indicated as being
present at the 'Thirteenth Precinct during the two hour [sic] period identified by
plaintiff.
Docket Entry No. 467, p. 6-7.
Saint-Fort also filed her declaration, dated February 27,2019, in which she stated:
36. On August 8, 2018, the parties had a “meet and confer” conversation related to
that request, during which Plaintiff stated that she needed these newly requested
documents because counsel for Defendant’s declaration dated August 3, 2018,
stated that the roll call for August 15,2015 was reviewed, not August 19,2015, see
ECF Dkt. No. 352, and thus presumably did not obtain information responsive to
Plaintiffs interrogatory concerning her visit to the Thirteenth Precinct on August
19, 2015.
37. During the August 8, 2018 conversation, counsel for Defendant explained that
the date listed on the declaration was a typographical error and thatNYPD provided
the roll call sheet for August 19,2015 for counsel’s review.
10

F-10

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 11 of 22

38. Also during that conversation, Plaintiff stated for the first time that the
individual she sought to identify as the person standing next to PAA Demuth could
have been a Captain or a higher ranking [sic] individual that would not be listed on
the roll call, but would be located on the command log.
39. Based on the information that was provided to counsel for the first time, over
six months after discovery closed, on August 8, 2018, Defendant requested the
command log of the Thirteenth Precinct for August 19, 2015 to ascertain if any
captains or higher ranked [sic] individuals were listed as being present at the
Thirteenth Precinct between 5:30 p.m. and 8 p.m. on August 19,2015.
* * *

60. On February 9,2019,4 Magistrate Judge Fox issued an order deciding Plaintiffs
August 30,2018 Motion for Sanctions.
Docket Entry No. 468,

36-39 & 60.
LEGAL STANDARD

Rule 11 of the Federal Rules of Civil Procedure provides:
By presenting to the court a pleading, written motion, or other paper—whether by
signing, filing, submitting, or later advocating it—an attorney or unrepresented party
certifies that to the best of the person’s knowledge, information, and belief, formed
after an inquiry reasonable under the circumstances... the factual contentions have
evidentiary support or, if specifically so identified, will likely have evidentiary
support after a reasonable opportunity for further investigation or discovery.
Fed.R. Civ. P. 11(b)(3).
Rule 11 also provides for sanctions for violations of Rule 11(b):
(c) Sanctions.
(1) In General. If, after notice and a reasonable opportunity to respond, the court
determines that Rule 11 (b) has been violated, the court may impose an appropriate
sanction on any attorney, law firm, or party that violated the rule or is responsible
for the violation. Absent exceptional circumstances, a law firm must be held jointly
responsible for a violation committed by its partner, associate, or employee.
(2) Motionfor Sanctions. A motion for sanctions must be made separately from any
other motion and must describe the specific conduct that allegedly violates Rule
11(b). The motion must be served under Rule 5, but it must not be filed or be
presented to the court if the challenged paper, claim, defense, contention, or denial
is withdrawn or appropriately corrected within 21 days after service or within
4 No order was issued by the Court on February 9,2019. The Court decided the plaintiffs motion, Docket Entry
No. 372, on February 5,2019. See Docket Entry No. 450.

11

F-ll

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 12 of 22

another time the court sets. If warranted, the court may award to the prevailing party
the reasonable expenses, including attorney’s fees, incurred for the motion.
(3) On the Court’s Initiative. On its own, the court may order an attorney, law firm,
or party to show cause why conduct specifically described in the order has not
violated Rule 11(b).
(4) Nature of a Sanction. A sanction imposed under this rule must be limited to
what suffices to deter repetition of the conduct or comparable conduct by others
similarly situated. The sanction may include nonmonetary directives; an order to
pay a penalty into court; or, if imposed on motion and warranted for effective
deterrence, an order directing payment to the movant of part or all of the reasonable
attorney’s fees and other expenses directly resulting from the violation.
(5) Limitations on Monetary Sanctions. The court must not impose a monetary
sanction:
(A) against a represented party for violating Rule 11(b)(2); or
(B) on its own, unless it issued the show-cause order under Rule 11(c)(3) before
voluntary dismissal or settlement of the claims made by or against the party that is,
or whose attorneys are, to be sanctioned.
(6) Requirements for an Order. An order imposing a sanction must describe the
sanctioned conduct and explain the basis for the sanction.
(d) Inapplicability to Discovery. This rule does not apply to disclosures and
discovery requests, responses, objections, and motions under Rules 26 through 37.
Fed. R. Civ. P. 11(c).
Rule 11 “does not apply to disclosures and discovery requests, responses, objections, and
motions under Rules 26 through 37.” Fed. R. Civ. P. 11(d).
Rules 26(g) and 37 establish certification standards and sanctions that apply to
discovery disclosures, requests, responses, objections, and motions. It is
appropriate that Rules 26 through 37, which are specially designed for the discovery
process, govern such documents and conduct rather than the more general
provisions of Rule 11. Subdivision (d) has been added [to Rule 11] to accomplish
this result.
Fed. R. Civ. P. 11 Advisory Committee’s Note to 1993 Amendment, Subdivision
(d).
Prior to the 1993 Amendment of Rule 11, the Supreme Court found that “Rule 11... imposes an
objective standard of reasonable inquiry which does not mandate a finding of bad faith.”
12

F-12

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 13 of 22

Chambers v.Nasco, Inc.. 501 U.S. 32, 47, 111 S. Ct. 2123,2134 (1991) (citingBusiness Guides.
Inc, v. Chromatic Commc’ns Enters.. Inc. 498 U.S. 533, 548-49, 111 S. Ct. 922, 931-32 (1991)).
The Advisory Committee’s Note to the 1993 Amendment of Rule 11, Subdivisions (b) and (c)
states:
These subdivisions restate the provisions requiring attorneys and pro se litigants to
conduct a reasonable inquiry into the law and facts before signing pleadings, written
motions, and other documents, and prescribing sanctions for violation of these
obligations. The revision in part expands the responsibilities of litigants to the court,
while providing greater constraints and flexibility in dealing with infractions of the
rule. The rule continues to require litigants to “stop-and-think” before initially
making legal or factual contentions. It also, however, emphasizes the duty of candor
by subjecting litigants to potential sanctions for insisting upon a position after it is
no longer tenable and by generally providing protection against sanctions if they
withdraw or correct contentions after a potential violation is called to their attention.
Fed. R. Civ. P. 11 Advisory Committee’s Note to 1993 Amendment, Subdivisions
(b) and (c).
“The power of the court to act on its own initiative is retained [in the 1993 Amendment of Rule
11], but with the condition that this be done through a show cause order.” Fed. R. Civ. P. 11
Advisory Committee’s Note to 1993 Amendment, Subdivisions (b) and (c). Although in a
circumstance in which “a trial judge, sua sponte, initiates a post-trial Rule 11 sanction
proceeding,” In re Pennie & Edmonds LLP. 323 F.3d 86, 87 (2d Cir. 2003), the Second Circuit
Court of Appeals imposed a heightened standard requiring a finding of bad faith on the part of
the attorney whose misconduct is at issue, see id- at 90, no “blanket rule that the subjective bad
faith standard applied whenever there was no longer a safe harbor” exists. ATSI Commc’ns. Inc.
v.Shaar Fund. Ltd.. 579 F.3d 143, 151 (2d Cir. 2009).

13

F-13

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 14 of 22

APPLICATION OF LEGAL STANDARD
Fed. R. Civ. P. 11(d)
The purpose of Rule 11 (d) is to exempt from Rule 11 sanctions conduct in connection
with: (a) certification standards imposed by “Rules 26(g) and 37”; and (b) discovery disclosures,
requests, responses, objections, and motions under Rule 26 through Rule 37, because Rules 26
through 37 “govern such documents and conduct rather than general provisions of Rule 11.”
Fed. R. Civ. P. 11 Advisory Committee’s Note to 1993 Amendment. However, the conduct at
issue does not concern Rule 26(g) or Rule 37 certifications and is not covered by any provisions
of Rules 26 through 37; rather, it concerns the certification requirement governed by Rule
11(b)(3). Although the conduct at issue occurred in connection with the defendant’s opposition
(Docket Entry Nos. 467, at 6 and 468,

38-39) to the plaintiffs supplemental motion for

sanctions (Docket Entry No. 434), the plaintiffs supplemental motion was made on mixed
grounds, namely, Rules 26(g), Rule 37, the Court’s inherent power and 28 U.S.C. § 1927. SaintFort does not argue, in response to the June 20,2019 order to show cause, that Rule 11(d) applies
in this circumstance, waiving that argument. See City of New York v. Minetta, 262 F.3d 169,
180 (2d Cir. 2001) (an “argument not mentioned in the brief [is] waived”) (citation omitted).
Where, as here, the action is pending and the conduct at issue: (1) involves the certification
requirement governed by Rule 11(b)(3): (2) was raised sua sponte by the Court’s June 20,2019
order to show cause; (3) is not contemplated by or subject to sanctions under the certification or
other provisions of Rules 26 through Rule 37; (4) is subject to sanctions under Rule 11(c);

14

F-14

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 15 of 22

(5) occurred in connection with the motion made on the mixed grounds; (6) Saint-Fort had the
opportunity to address the applicability of Rule 11(d) but failed to do so, the Court finds that,
under these circumstances, Rule 11 (d) does not apply.
Fed. R. Civ. P. 11(b)(3)
In response to the June 20, 2019 order to show cause why “repeating and relying on the
debunked factual contention, that the defendant only learned from the plaintiff on August 8,
2018, that the PAA’s supervisor could hold the rank of captain or higher” did not violate Rule
■ 11(b), Saint-Fort argues that: (1) she “did not read Magistrate Judge Fox’s February 5, 2019
Order closely enough on this point,” and “the repetition of the statement that Plaintiff provided
such information about ‘PAA Demuth’s supervisor’ ‘for the first time’” on August 8, 2018, in
Saint-Fort’s February 27, 2019 declaration, “was a sincere mistake” not made in bad faith, for
any improper purpose or with intent to deceive the Court and “amounts to negligence”; (2) she
“did not understand the Plaintiffs statement” in the plaintiffs January 9, 2018 reply brief and
July 20, 2018 declaration, “that PAA Demuth’s supervisor could have held the rank of lieutenant
or higher,” “to be providing new information” and “to be one of clarification but rather one of
continued dispute”; and (3) her “failure to edit the statement by removing the phrase ‘for the first
time’ was a mistake,” “not made with any semblance of bad faith.” Saint-Fort does not argue
that she did not violate Rule 11(b)(3); rather, she argues only that her conduct “was a mistake,”
not made in bad faith, for any improper purpose or with intent to deceive the Court, and
■

“amounts to negligence.” In support of her argument, Saint-Fort makes citation to: (i) In re
Pennie & Edmonds LLP, contending that the Second Circuit requires a finding of bad faith “for a
sanction proceeding initiated by a district court against an attorney”; (ii) Milltex Indus. Corp. v.
15

F-15

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 16 of 22

Jacquard Lace Co., 55 F.3d 34 (2d Cir. 1995), contending that bad faith “can be inferred when a
party’s actions are ‘entirely without color’ and are motivated by ‘improper purposes’ such as
harassment or delay”; and (iii) Centauri Shipping Ltd., contending that, “[similarly” to that case,
her “inclusion of the repeated statement at issue amounts to negligence.”
Milltex Indus. Corp. did not involve Rule 11; rather, it involved imposition of sanctions
based on the court’s inherent powers. 55 F.3d at 35. Contrary to Saint-Fort’s proposition that
the Second Circuit requires a finding of bad faith “for a sanction proceeding initiated by a district
court against an attorney,” subsequent to In re Pennie & Edmonds LLP, the Second Circuit
clarified that no “blanket rule that the subjective bad faith standard applied whenever there was
no longer a safe harbor” exists. ATSI Commc’ns, Inc.. 579 F.3d at 151. Saint-Fort also relies on
Centauri Shipping Ltd., in which the court applied the bad faith standard in determining
sanctions for a violation of Rule 11(b) based on a false statement contained in counsel’s
affirmation and noted that: (i) “district courts in this circuit have consistently applied the Pennie
& Edmonds standard to cases where, as here, the attorney personally submitted a false or
misleading filing and the court, sua sponte, initiated a pre-trial Rule 11 sanction proceeding”;
and (ii) “the court’s holding in Pennie & Edmonds is sufficiently broad so as to govern the
sanction proceeding in the instant case.” 528 F. Supp. 2d at 200 n.3. However, reliance on
Centauri Shipping Ltd, is misplaced, since that case was decided before the Second Circuit
clarified that no “blanket rule that the subjective bad faith standard applied whenever there was
no longer a safe harbor” exists. ATSI Commc’ns. Inc., 579 F.3d at 151. In light of: (1) the
Supreme Court’s holding that “Rule 11... imposes an objective standard of reasonable inquiry
which does not mandate a finding of bad faith,” Chambers. 501 U.S. at 47, 111 S. Ct. at 2134;
16

F-16

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 17 of 22

(2) the Second Circuit clarification that no “blanket rule that the subjective bad faith standard
applied whenever there was no longer a safe harbor” exists, ATSI Commc’ns. Inc.. 579 F.3d at
151; and (3) the absence of any binding authority requiring a finding of bad faith in all
circumstances in which a court initiates Rule 11 proceedings sua sponte. the Court finds that, in
this circumstance, a finding of bad faith is not required to impose Rule 11 sanctions for a
violation of Fed. R. Civ. P. 11(b)(3). See Chambers. 501 U.S. at 47, 111 S. Ct. at 2134; ATSI
Commc’ns, Inc., 579 F.3d at 151. The Court will apply “an objective standard of reasonable
inquiry,” Chambers, 501 U.S. at 47,111 S. Ct. at 2134, in determining whether Saint-Fort
violated Rule 11(b)(3), considering each of the reasons for her “repeating and relying on the
debunked contention” that the defendant “only learned from [the plaintiff] on August 8, 2018,
that the PAA’s supervisor could hold the rank of captain or higher,” in her February 27,2019
declaration and memorandum of law.
(1) Failure to Read the Court’s February 5, 2019 Order “Closely Enough”
The Court noted in the February 5, 2019 order that the defendant’s contention at issue was
undermined by the record because the plaintiff advised the defendant, through her January 9,
2018 reply brief and July 20,2018 declaration “that the PAA’s supervisor could hold the rank of
lieutenant or higher including the rank of captain because the supervisor wore a white shirt.”
Docket Entry No. 450, at 21. Saint-Fort acknowledged in the memorandum of law in response
to the order to show cause “that I did not read Magistrate Judge Fox’s February 5, 2019 Order
closely enough on this point.” Saint-Fort did not explain: (a) what, if anything, prevented her
from reading “Magistrate Judge Fox’s February 5, 2019 Order closely enough on this point”; and
(b) the meaning of “closely enough.” Given that the Court noted that the defendant’s contention
17

F-17

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 18 of 22

was undermined by the plaintiffs January 9, 2018 reply and July 20,2018 declaration, in which
the plaintiff advised “that the PAA’s supervisor could hold the rank of lieutenant or higher
including the rank of captain,” consisted of two sentences, and absent any explanation of the
meaning of “closely enough on this point,” it is hard to fathom how one can read two sentences
“closely” but not “closely enough,” which is what Saint-Fort suggests in the memorandum of
law. Saint-Fort’s contention, in the memorandum of law, that she did not read the February 5,
2019 order “closely enough on this point” is not supported by her declaration, in which she
admitted that her repeating and relying on the debunked factual contention was a mistake. The
Court’s February 5, 2019 order granted in part and denied in part the plaintiffs motion for
sanctions, reopening discovery “solely for the purpose of deposing Lt. Kalicovic.” Docket Entry
No. 450. Not reading a court order “closely enough” in a pending litigation is the epitome of
unreasonable conduct by an attorney representing a party in an action. Saint-Fort’s alleged
failure to read the Court’s February 5,2019 order “closely enough” was objectively
unreasonable, especially given that, on June 28, 2018, the Court sanctioned the defendant for its
improper conduct, namely, violations of Fed. R. Civ. P. 33 and the Court’s discovery-related
order, including ordering it to pay the plaintiffs expenses. See Docket Entry Nos. 319, 492.
The Court also finds that Saint-Fort’s alleged failure to read the Court’s February 5, 2019 order
“closely enough” in this circumstance was objectively unreasonable, because the order directed
that further limited discovery activities be conducted by the parties, requiring the parties’ utmost
attention and action.

18

F-18

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 19 of 22

(2) Understanding the Plaintiff’s January 9.2018 and July 20.2018 statement not as “new
information” or “clarification” but “rather one of continued dispute”
Saint-Fort’s statement, in her June 27, 2019 declaration that she understood the plaintiffs
statement, in the plaintiffs January 9, 2018 reply brief and July 20,2018 declaration, “that PAA
Demuth’s supervisor could have held the rank of lieutenant or higher,” not as new information,
but “one of continued dispute” is falsehearted and strains credulity. The plaintiff did not mention
in her December 4, 2017 motion for sanctions, Docket Entry No. 152, the rank of PAA Demuth’s
supervisor or that he was wearing a “white shirt.” The rank of PAA Demuth’s supervisor and his
wearing a “white shirt” were mentioned for the first time by Saint-Fort in her December 18, 2017
declaration in opposition to the plaintiffs motion:
9. On October 13, 2017,5 during a meet and confer phone conversation regarding
Plaintiffs interrogatories, Plaintiff explained for the first time that the individual she
identified as “PAA Demuth’s supervisor” was wearing a white shirt on August 19,
2015 when she interacted with him at the Thirteenth Precinct, and thus, was likely a
Lieutenant.
Docket Entry No. 165, U 9.
The plaintiff stated in her January 9,2018 reply brief, Docket Entry No. 18, at 5, and her January
9, 2018 declaration accompanying the reply brief, Docket Entry No. 182,

23:

Plaintiff stated during the [October 16, 2017] phone call that she does not know the
title of PAA Demuth’s supervisor but he must be a sergeant or higher than sergeant,
could be lieutenant, also could be higher than lieutenant. Plaintiff states that he can
be a captain or higher than lieutenant.

5 The meet and confer telephone conversation occurred on October 16,2017, not October 13,2017. See Docket
Entry No, 129-1.

19

F-19

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 20 of 22

It is apparent from the record that no dispute existed about what the plaintiff explained to SaintFort during the October 16, 2017 telephone call, because, in response to Saint-Fort’s mentioning
of the rank of PAA Demuth’s supervisor and that he was wearing “a white shirt” and “thus, was
likely a Lieutenant,” the plaintiff stated in her January 9, 2018 reply that PAA Demuth’s
supervisor “can be a captain or higher than lieutenant.” Thus, the plaintiff in her January 9, 2018
reply did not dispute Saint-Fort’s statement that PAA Demuth’s supervisor was wearing “a white
shirt” and “was likely a Lieutenant”; rather, the plaintiff clarified and explained that “he can be a
captain or higher than lieutenant,” since, as the plaintiff demonstrated in her July 20,2018
declaration, to which the “New York Police Department Patrol Guide” was attached, wearing a
white shirt “indicates that his rank is lieutenant or higher,” Docket Entry No. 340,

74-76.

Accordingly, Saint-Fort’s contention that she understood the plaintiffs statement in her January
9, 2018 reply brief and July 20,2018 declaration to be “one of continued dispute” and not new
information or clarification is spurious, unsupported by evidence and contrary to the record. The
Court finds that Saint-Fort’s understanding of the plaintiff s statement in her January 9, 2018
reply brief and July 20, 2018 declaration as “one of continued dispute” and not new information
or clarification was objectively unreasonable.
Even assuming that Saint-Fort’s understanding of the plaintiffs statement in her January
9, 2018 reply brief and July 20,2018 declaration was not objectively unreasonable prior to the
court’s February 5,2019 order, it was objectively unreasonable after the Court rejected it
expressly as contradicted by the record in the February 5,2019 order. Thus, continuing to
maintain the same rejected understanding after the February 5,2019 order was objectively
unreasonable.
20

F-20

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 21of22

(3) Saint-Fort’s conduct was a mistake
Rule 11(b)(3) does not exempt from its requirements conduct that is “a mistake” and
“amounts to negligence,” nor does Rule 11(c) exempt “a mistake” and “negligence” from
conduct subject to sanctions. Moreover, prejudice to the plaintiff is not mentioned in Rule 11
and Saint-Fort does not make citation to any authority requiring a prejudice finding when
determining whether a Rule 11(b)(3) violation has occurred.
For the foregoing reasons, the Court finds that “repeating and relying on the debunked
factual contention” in the February 27, 2019 declaration and memorandum of law signed and
filed by Saint-Fort was objectively unreasonable. Accordingly, the Court finds that Saint-Fort
violated Rule 11 (b)(3).
Fed. R. Civ. P. 11(c)
The Court finds that sanctions for Saint-Fort’s violation of Rule 11(b)(3), in this
circumstance, are warranted to achieve the purpose of Rule 11 sanctions, which is “to deter
repetition of the conduct or the comparable conduct by others similarly situated.” Fed. R. Civ. P.
11(c)(4). The monetary sanction in the amount of $300 that was imposed previously in this
action, albeit on the defendant for violations of the Fed. R. Civ. P. 33 and the Court’s order,
Docket Entry Nos. 319,492, did not seem to have a deterrent effect on Saint-Fort and prevent
her from violating Rule 11(b)(3). The pretrial proceedings in this action have almost concluded.
The Court has considered that fact in determining what sanction(s) would suffice to deter SaintFort, specifically, and others similarly situated from engaging in the type of misconduct outlined
above. The Court concludes that monetary and nonmonetary sanctions are the least severe,
appropriate and necessary to advance effectively Rule 1 l’s purpose of deterring sanctionable
21

F-21

Case l:16-cv-06099-AJN-KNF Document 540 Filed 09/16/19 Page 22 of 22

conduct. Accordingly, the Court imposes the following sanctions for Saint-Fort’s violation of
Rule 11(b)(3):
(1) Saint-Fort shall pay, to the Clerk of Court, on or before September 23, 2019, $500.00
(five hundred dollars);
(2) Saint-Fort shall distribute a copy of this order to: 1) the acting corporation counsel;
2) Saint-Fort’s supervisor; and 3) every attorney within the New York City Law
Department, Labor & Employment Law Division; and
(3) the Court reprimands Saint-Fort for her misconduct.
Within 14 days from the date of this order, Saint-Fort shall file an affidavit, with the Clerk of
Court, certifying that she complied with this order.
SO ORDERED:

Dated: New York, New York
September 16,2019

KEVIN NATHANIEL FOX
UNITED STATES MAGISTRATE JUDGE

shim-larkitu mo 13

22

F-22

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 1 of 26

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
■X

HEENA SHIM-LARKIN,

USDCSBNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:_______
DATE FILED: 3/4 //9

Plaintiff,
MEMORANDUM and ORDER
-against16-CV-6099 (AJN)(KNF)
CITY OF NEW YORK,

Defendant.
■X

KEVIN NATHANIEL FOX
UNITED STATES MAGISTRATE JUDGE
INTRODUCTION
Plaintiff Heena Shim-Larkin (“Shim-Larkin”), proceeding pro se, has made a motion for an
order: (1) striking “Dominique Saint-Fort’s [(“Saint-Fort”)] perjurious declaration dated August 3, 2018
... pursuant to FRCP 26(g), FRCP 37(b)(2)(A)(ii), and Court’s inherent power”; (2) requiring that
“Lieutenant [Bekim] Kalicovic [(“Lt. Kalicovic”) be deposed] at Defendant’s expense pursuant to FRCP
26(g), FRCP 37(b)(2)(c), 28 U.S.C. § 1927, and Court’s inherent power”; (3) directing “the fact that
‘[b]ecause of [the water hose incident on August 19,2015,] Ms. Shim-Larkin experienced another
anxiety attack’ ... be taken as established for the purpose of this action pursuant to FRCP 26(g), FRCP
37(b)(2)(A)(i), and Court’s inherent power”; (4) compelling “Defendant to provide [a copy of] all roll
call(s), command log(s), and schedule(s) of the 13th police precinct for the date of August 19, 2015,... at
least three days before the deposition of [Lt.] Kalicovic, and original at the deposition of [Lt.] Kalicovic,
pursuant to FRCP 26(g), and Court’s inherent power”; (5) requiring “Defendant to pay Plaintiff costs and
expenses incurred in relation to this motion including copying, printing and transportation pursuant to
FRCP 26(g)(3), FRCP 37(b)(2)(c), 28 U.S.C. § 1927, and the Court’s inherent power”; and (6) imposing
“other sanctions against Defendant and its counsels which court deems just and proper pursuant to FRCP
26(g), FRCP 37(b)(2)(A), 28 U.S.C. § 1927, and the Court’s inherent power.” The defendant opposes
the motion.

Appendix G

G-l

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 2 of 26

BACKGROUND
This action was brought pursuant to Title VII of the Civil Rights Act of 1964, the Americans
with Disabilities Act of 1990 and New York state and city anti-discrimination laws and arises out of
Shim-Larkin’s employment by the defendant, as a seasonal lifeguard at the Thompkins Square mini pool,
during the summer of 2015. Shim-Larkin contends that, in addition to the discriminatory treatment she
suffered while employed by the defendant, she was assaulted by a co-worker who, using a hose, sprayed
water on her. Shim-Larkin reported the assault to the defendant’s police department. Shim-Larkin
recalls that, as she was lodging her complaint at the police precinct, she experienced an anxiety attack,
which was witnessed bya law enforcement officer who was acting in a supervisory capacity with respect
to a police administrative aide (“PAA”) with whom Shim-Larkin was interacting. Shim-Larkin sought,
through an interrogatory served on the defendant on April 25,2017, to ascertain the identity of that
supervising officer. Shim-Larkin maintains that the defendant frustrated her ability to secure the identity
information by, inter alia, failing to: 1) respond timely and completely to her interrogatory; 2) undertake
a timely and thorough search to identify the officer; and 3) solicit from her additional information, if such
were needed, to identify the officer.
Shim-Larkin filed a cross-motion for sanctions in July 2018. The defendant opposed that motion
by, among other things, filing an August 3, 2018 declaration prepared by Saint-Fort, its counsel. Upon
reviewing that declaration, Shim-Larkin discovered that “new information concerning [the abovereferenced interrogatory] regarding [the supervising officer]” was disclosed. Thereafter, on August 6,
2018, Shim-Larkin wrote to Saint-Fort requesting that the defendant provide her “[a]ll roll call(s),
command log(s), and schedule(s) concerning the 13th police precinct concerning August 19, 2015 from
5:30 p.m. through 8 pm [sic].” Shim-Larkin and Saint Fort spoke via telephone on August 8, 2018.
Saint-Fort recalls that, during that conversation, Shim-Larkin revealed to her, “for the first time,” that the
PAA’s supervisor could be a captain or higher ranking officer. Based on Saint-Fort’s August 3, 2018
declaration, Shim-Larkin concluded that the “[defendant failed to take [sic] reasonable inquiry into the

-2-

G-2

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 3 of 26

identify [sic] of the individual whom Plaintiff described [as the supervising officer] and additional
discovery is needed.” As a consequence, Shim-Larkin seeks relief through the instant motion.
THE MOTION
PLAINTIFF’S CONTENTIONS
Defense Counsel’s Perjurious Declaration
Shim-Larkin asserts that Saint-Fort’s August 3, 2018 declaration indicates that on November 21,
2017, the defendant “requested the roll call for the Thirteenth Precinct [for] August 15, 2015, between
5:30 p.m. and 8:00 p.m.” and received same in December 2017. However, August 15, 2015, is not the
date on which Shim-Larkin visited the 13th police precinct. Shim-Larkin contends that when she
“accused Defendant for requesting the roll call for the wrong date,” August 15,2015, instead of August
19, 2015, Saint-Fort wrote, in an August 24, 2018 letter, that paragraphs 15 and 17 of her declaration
recorded the August 15, 2015 date “mistakenly” and that the defendant had in fact requested and received
the August 19, 2015 roll call data germane to the hours 5:30 p.m. through 8:00 p.m. Shim-Larkin
concludes that Saint-Fort’s admission, in her August 24,2018 letter, that August 15, 2015, was
“mistakenly” recited in paragraphs of her August 3,2018 declaration demonstrates that Saint-Fort
“committed perjury” via her declaration.
Shim-Larkin contends that Saint-Fort asserted in her August 3, 2018 declaration, that the only
male lieutenant at the 13th precinct on August 19, 2015, was “a Special Operations Officer who wears
plain clothes,” and that this is a perjurious statement. According to Shim-Larkin, this is so because the
New York City police department’s Patrol Guide (“Patrol Guide”) “indicates that Special Operations
Lieutenant should wear uniform as much as possible, except when it is not practical to wear uniform.”
Furthermore, in light of the information in the Patrol Guide about the attire of Special Operations
lieutenants, Shim-Larkin maintains that if the defendant “ruled out [the] Special Operations Lieutenant”
as the PAA’s supervisor - whose identity Shim-Larkin has been seeking - because the lieutenant the

-3-

G-3

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 4 of 26

defendant focused on was wearing plain clothes, then “a reasonable person will conclude that [the
August 3, 2018 declaration] misled the courts and Plaintiff into believing that Special Operations
Lieutenant wears plain clothes all the time.”
Shim-Larkin contends that in Saint-Fort’s August 3, 2018 declaration counsel stated that “[n]o
[police] Captain was assigned to the Thirteenth [police] precinct between 5:30 p.m. and 8:00 p.m.” on
August 19, 2015. Shim-Larkin maintains that the portion of the precinct’s Command Log, for August 19,
2015, that the defendant disclosed to her reflects an entry at 7:08 p.m. “with [a] captain’s signature,” and
that Saint-Fort acknowledged, in her August 24,2018 letter, that the Command Log “listed the name of
the only captain present at the Thirteenth Precinct on August 19, 2015 between 5:30 p.m. and 8:00 p.m.”
Therefore, according to Shim-Larkin, “Saint-Fort committed perjury by declaring that ‘[no] Captain was
assigned to the Thirteenth Precinct between 5:30 p.m. and 8:00 p.m.,’ which was not correct and true.”
To address the instances of perjury alleged above, Shim-Larkin urges the Court to strike Saint-Fort’s
August 3, 2018 declaration from the record, as a sanction, pursuant to the Court’s inherent power and
Fed. R. Civ. P. 37(b)(2)(A)(ii), to prevent its receipt into evidence during proceedings associated with
this action.
Rule 26(g~) Violation
Shim-Larkin contends that, since the time she served the defendant with her first set of
interrogatories, on April 25, 2017, she has been trying to learn from the defendant the identity of the law
enforcement officer who was supervising the PAA with whom Shim-Larkin interacted on August 19,
2015, at the 13th police precinct. Shim-Larkin recalls that on October 16, 2017, during a telephone
conversation with Saint-Fort, she reported that the PAA’s supervisor could be a lieutenant or higher
ranking officer because he wore a white shirt. Shim-Larkin made this assertion about the PAA’s
supervisor in filings she made with the court in January and July 2018. Shim-Larkin contends that
“nearly a year after” the August 25, 2017 deadline fixed by the Court for the defendant to respond to the

-4-

G-4

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 5 of 26

plaintiff s April 2017 first set of interrogatories, Saint-Fort filed her August 3, 2018 declaration which
supplied new information “concerning Defendant’s efforts to identify the [PAA’s supervisor whom]
Plaintiff s Interrogatory No. 1 sought [to identify], and [reported] the result of the investigation” the
defendant undertook to identify that person.
Shim-Larkin maintains that the defendant’s tardiness in responding to interrogatory no. 1 of her
first set of interrogatories - almost one year after the Court directed it to respond - is not explained, as
the defendant claims, by the alleged vagueness of the information Shim-Larkin provided about the PAA’s
supervisor because: 1) the defendant never “informed Plaintiff that it needs more information to start a
search [into the identity of the supervisor] until [the occurrence of the] October 16,2017 phone call”
Shim-Larkin had with Saint-Fort; 2) Saint-Fort’s declaration indicates that the defendant waited until
November 21, 2017, over 30 days after the October 16, 2017 telephone conversation Shim-Larkin had
with Saint-Fort* to request the 13th police precinct roll call to investigate the supervisor’s identity; 3) the
defendant’s vagueness objection to the relevant interrogatory was determined by the Court in August
2017 to have been waived; and 4) the defendant never requested from the Court an extension of time to
respond to the interrogatory: “Defendant... simply ignorefd] the deadline set by the court order.”
According to Shim-Larkin, these factors demonstrate that the reasonable inquiry obligation imposed by
Rule 26(g) of the Federal Rules of Civil Procedure was not met and a sanction must be imposed pursuant
to Fed. R. Civ. P. 27(g)(3).
Deposition of Lt. Kalicovic
Shim-Larkin contends that, based upon her review of the portion of the 13th precinct’s August 19,
2015 Command Log the defendant disclosed to her, Lt. Kalicovic, the Special Operations lieutenant,
“was on duty when Plaintiff visited the 13th precinct on August 19, 2015 and his name appears in [the]
NARRATIVE section of NYPD [New York Police Department] complaint report” that was generated
based on Shim-Larkin’s visit to the precinct. According to Shim-Larkin, “she requested Defendant to

-5-

G-5

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 6 of 26

verify whether” Lt. Kalicovic is the PAA’s supervisor whose identity Shim-Larkin attempted to learn via
her first set of interrogatories. Shim-Larkin contends that no verification was provided by the defendant
because it determined that Lt. Kalicovic wore plain clothes on August 19, 2015, not a police department
uniform. Shim-Larkin maintains that “[s]ince Defendant refused to verify whether Lt. Kalicovic was the
person [the plaintiffs] Interrogatory No. 1 sought or not, Plaintiff needs to do it herself,” through a
deposition of the lieutenant, the cost of which the Court should make the defendant bear. According to
Shim-Larkin, in an unrelated case, Lt. Kalicovic testified at a deposition that he served as “a desk officer
and he is familiar with Command Log entries.” Shim-Larkin has indicated that, at the lieutenant’s
deposition she will explore with him the 13th precinct’s “roll call(s), command log(s), and schedule(s)”;
therefore, the Court should direct the defendant to provide a copy of those documents to her three days
prior to the lieutenant’s deposition and require the defendant to produce the original documents for her
inspection at the deposition. According to Shim-Larkin, producing the original Command Log at the
deposition is vital because “the handwriting in the [copy of the] command log she received is hard to read
and there are many codes [in the Command Log,] which Plaintiff does not know what they mean.”
Directing Pact is Established
Shim-Larkin contends that the “Defendant attempted to avoid its discovery obligation of
providing [the identity of the PAA’s supervisor] through perjurious Saint-Fort Declaration].” According
to Shim-Larkin, an intentional or grossly negligent act that hinders discovery supports an inference that
the information whose revelation was hindered was harmful to the hindering party. Shim-Larkin
maintains that, in the circumstance of this case, “[a] reasonable person will be able to infer from the fact
that Saint-Fort committed perjury, that the identity of [the PAA’s] supervisor is both relevant and
harmful to Defendant.” As a consequence for the defendant’s hindering her discovery efforts to learn the
identity of the PAA’s supervisor, Shim-Larkin requests that the Court deem “established for [the]
purpose of this action” her allegation, that she experienced an anxiety attack, at the 13th precinct, which

-6-

G-6

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 7 of 26

was observed by the PAA’s supervisor, and that it was brought on by “the water hose incident [to which
she alleges her co-worker subjected her,] on August 19, 2015.”
DEFENDANT’S CONTENTIONS
According to the defendant, Shim-Larkin’s “motion for sanctions must be denied because neither
her assertion that Saint-Fort’s August 3, 2018 declaration “included perjured statements [-which] is
incorrect” - nor her failure to receive “discovery from requests made following the close of discovery” is
“sanctionable conduct.” In support of its position, the defendant submitted a memorandum of law and a
declaration by Saint-Fort. Attached to the declaration are: “Exhibit A,” an August 6, 2018 letter by
Shim-Larkin to Saint-Fort requesting “[a]ll roll call(s), command log(s) and schedule(s) concerning the
13th police precinct concerning August 19, 2015, from 5:30 pm through 8 pm [sic]”, and complaining that
on November 21, 2017, “Defendant requested a roll call for the wrong date,” August 15, 2015, instead of
August 19,2015; “Exhibit B”, an August 23, 2018 letter by Saint-Fort to Shim-Larkin “to follow-up on”
Shim-Larkin’s August 6, 2018 letter and an August 8, 2018 telephone conversation Shim-Larkin had with
Saint-Fort; “Exhibit C”, email messages exchanged by Shim-Larkin and Saint-Fort on August 23 and 24,
2018; and “Exhibit D,” a September 12, 2018 declaration by Captain Bekim Kalicovic in which he states
he performed his duties on August 19, 2015, in plain clothes.
The defendant contends that Shim-Larkin provided “general and vague” descriptive information
about the person she maintains was supervising the PAA on August 19, 2015. In her “First Set of
Interrogatories,” Shim-Larkin indicated that the supervisor was “[p]ossibly a sergeant, Caucasian male.”
According to the defendant, on October 16, 2017, during a telephone conversation with Saint-Fort, ShimLarkin “explained for the first time,” that the PAA’s supervisor, whose identity Shim-Larkin sought was
“wearing a white shirt on August 19,2015 ... and thus was likely was a Lieutenant.” Based on “this

'Lt. Kalicovic was, according to Exhibit D to Saint-Fort’s declaration, promoted to captain on
August 31,2018. To ensure clarity and for consistency, the Court will, in this writing, refer to him as a
lieutenant.

-7-

G-7

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 8 of 26

clarifying information as to the potential identity of [the] supervisor,” the defendant requested “the
August 19, 2015 schedule for the Thirteenth Precinct,” to commence “an investigation to discern the
[supervisor’s] identity.” “In further efforts to identify [the] supervisor, on November 21, 2017,
Defendant requested the roll call for the Thirteenth Precinct on August 19, 2015, between 5:30 p.m. and
8:00 p.m.” According to Saint-Fort, the defendant received the requested roll call in December 2017 and,
sometime thereafter, “Defendant spoke with ... Police Officers, Lieutenants, Sergeants and Police
Administrative Assistants [including the PAA with whom Shim-Larkin interacted on August 19, 2015] at
the Thirteenth Precinct to locate the person obliquely described by Plaintiff.” “In February or March
2018 Defendant completed [that] investigation.”
The defendant maintains that “[d]uring [an] August 8, 2018 conversation” that Saint-Fort had
with Shim-Larkin “Plaintiff stated for the first time that the individual she seeks to identify [, the PAA’s
supervisor,] could have been a Captain or a higher ranking individual” and, as a consequence, ShimLarkin stated that the person would not be identified on the precinct’s roll call but would be identified in
the precinct’s Command Log. According to Saint-Fort, the defendant received the command log “[o]n or
about August 22, 2018,” and Saint-Fort shared a redacted version of it with Shim-Larkin through a letter
dated August 23, 2018. The defendant contends that on August 24,2018, Shim-Larkin sent an email
message to Saint-Fort in which Shim-Larkin stated that the PAA’s supervisor whose identity she had
been seeking “was Lieutenant Kalicovic, requested that Defendant verify whether he is the person she
was seeking, and stated that if Defendant could not make such a verification she would seek sanctions in
the form of deposing [Lt.] Kalicovic at Defendant’s expense.”
In essence, the defendant maintains that the descriptive information provided by Shim-Larkin
regarding the PAA’s supervisor evolved over time: on April 25,2017, a Caucasian male, possibly a
sergeant, on October 16, 2017, a white-shirted officer, likely a lieutenant, on August 8, 2018, “over six
months after discovery closed,” a captain or higher ranking individual, and culminating on August 24,

-8-

G-8

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 9 of 26

2018, with an assertion by Shim-Larkin that the PAA’s supervisor “was in fact Lieutenant Kalicovic.”
The defendant asserts that no sanctions are warranted in a circumstance such as this where: (1) an
investigation is delayed not because of bad faith on the part of the defendant or any interest by the
defendant or its counsel in multiplying the proceedings but rather is a consequence of the general and
vague descriptive information provided by Shim-Larkin respecting the individual she believed was
supervising a PAA on August 19, 2015, at the 13th precinct; and (2) Shim-Larkin has failed “to cite any
case law interpreting the timeframe [sic] which is considered ‘reasonable’ in completing an investigation
into a request to identify a person who is vaguely described.”
The defendant contends that Shim-Larkin’s assertions of perjury by Saint-Fort are baseless.
According to the defendant, Saint-Fort’s acknowledgment that her August 3, 2018 declaration contained
a typographical error respecting the date for which roll call information from the 13th precinct was sought
that appears in paragraphs 15, 17, and 30 of that declaration, is not evidence of perjury, for although the
incorrect date is recited in the three paragraphs noted above, the correct date, August 19, 2015, is recited
at paragraph 27 of the same declaration. The defendant maintains that the mere repetition of the
incorrect date, August 15, 2015, supports its assertion that a typographical error was made especially in
light of the recitation of the correct date, August 19,2015, in the same declaration. Consequently, the
defendant contends that no sanction is warranted.
In like manner, the defendant asserts that the allegation of perjury made by Shim-Larkin
respecting Saint-Fort’s statement that no captain was assigned to the 13th precinct between 5:30 p.m. and
8:00 p.m. on August 19, 2015, cannot survive close scrutiny. This is so because, according to the
defendant, although a captain made an entry in the precinct’s Command Log, it does not establish that the
captain was assigned to the precinct, as Shim-Larkin asserts. Rather, the defendant maintains that it just
confirms that the captain was present in the precinct on that day. Therefore, no sanction is appropriate,
as the defendant did not engage in any bad faith conduct.
-9-

G-9

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 10 of 26

The defendant asserts that permitting Shim-Larkin to depose Lt. Kalicovic at the defendant’s
expense, as a sanction, is “nonsensical.” The defendant contends that this is so because the “plaintiff was
aware of [Lt. Kalicovic’s] name approximately ten months before the close of discovery but never
noticed his deposition or made discovery requests specific to him.” In addition, according to the
defendant, a deposition of Lt. Kalicovic would be “unnecessary given [Lt.] Kalicovic’s declaration dated
September 12,2018, attesting that he was in plain clothes on August 19, 2015.” The defendant maintains
that “[s]anctions are wholly inappropriate in this case” because the “Defendant has done nothing to
multiply this proceeding in any manner and has not engaged in any bad faith.” Therefore, “the threshold
requirement for sanctions under 28 U.S.C. § 1927” has not been met.
PLAINTIFF’S REPLY
Shim-Larkin maintains that the defendant “did not directly oppose sanctions [she requested]
based on FRCP 26(g), FRCP 37(b)(2), or the court’s inherent power.” Shim-Larkin contends that while
the defendant: (1) concedes that sanctions are appropriate where a party engages in “bad faith [conduct]
or willful misconduct”; and (2) asserts that it “has done nothing to multiply this proceeding ... [or]
engaged in any bad faith” conduct, “sanctions pursuant to FRCP 26(g) or FRCP 37(b)(2) do not require a
finding of bad faith.” Moreover, the defendant “failed to explain why or how sanctions pursuant to
FRCP 26(g), FRCP 37(b)(2), or the court’s inherent power are unwarranted,” rendering her request for
sanctions under Fed. R. Civ. P. 26(g), Fed. R. Civ. P. 37(b)(2), or the court’s inherent power unopposed
by the defendant. Shim-Larkin also contends that the “Defendant did not directly oppose Plaintiff’s
request for [a directive that a] certain fact be taken as established for the purpose of this action,” and did
not “explain why or how such relief is unwarranted.” Therefore, according to Shim-Larkin, the request
she made that the Court deem a certain fact as established for the purpose of this action is unopposed by
the defendant.

-10-

G-10

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 11 of 26

Shim-Larkin contends that the defendant’s failure to respond timely to her interrogatory no. 1, in
her first set of interrogatories, prevented her from assessing whether to depose Lt. Kalicovic and the fact
that his surname appeared in the NYPD complaint report pertinent to this action is meaningless because
Shim-Larkin is unaware of why his surname appears in that report.
According to Shim-Larkin, as noted above, Lt. Kalicovic is familiar with Command Log entries
because he testified previously, in an unrelated case, that he has served as a desk officer. Shim-Larkin
contends that the defendant failed to oppose directly her request to depose Lt. Kalicovic, at the
defendant’s expense, so that she might understand more fully the entries in the 13th precinct’s Command
Log. Shim-Larkin maintains that the defendant only opposed having Lt. Kalicovic deposed, at the
defendant’s expense, for two reasons, because: (1) Shim-Larkin knew the lieutenant’s name ten months
before the close of discovery; and (2) Lt. Kalicovic asserts, in his declaration, that he wore plain clothes
on August 19, 2015. Shim-Larkin contends that the two grounds upon which the defendant opposed her
request to depose Lt. Kalicovic, at its expense, relate solely to the issue of whether the individual ShimLarkin sought to identify as the PAA’s supervisor, through interrogatory no. 1 of her first set of
interrogatories, is Lt. Kalicovic. In addition, Shim-Larkin asserts that the two grounds relied upon by the
defendant in opposing the deposition request have nothing to do with her desire to gather information,
through the deposition, concerning what the entries in the Command Log mean. Therefore, Shim-Larkin
maintains that, “[sjince Defendant failed to explain why or how Kalicovic should not be questioned at
Defendant’s expense regarding practices concerning the Command Log,” her request to depose Lt.
Kalicovic, at the defendant’s expense, is unopposed. Shim-Larkin also maintains that the defendant did
not oppose directly her request that, prior to conducting the lieutenant’s deposition copies of the 13th
precinct’s roll calls, Command Logs and schedules be disclosed to her and that the original of those
documents be presented to her for inspection at the time of the lieutenant’s deposition; therefore, ShimLarkin contends that those requests are also unopposed by the defendant.

-li-

G-ll

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 12 of 26

According to Shim-Larkin, the defendant did not oppose directly her “request for award of costs
and expenses related to the instant motion.” Shim-Larkin notes that an excerpt of the 13th precinct’s
Command Log was provided to her “only after Plaintiff filed August 10, 2018 letter-motion, [for a pre­
motion discovery conference pursuant to Local Civil Rule 37.2 of this court,]” and that Lt. Kalicovic’s
verification, which Shim-Larkin requested from the defendant on August 24, 2018, via an email message
she sent to Saint-Fort, “was provided only after Plaintiff filed instant motion.” Shim-Larkin maintains
that, in a circumstance where material requested from the defendant is provided only after a motion to
compel has been filed, a court must, perforce of Fed. R. Civ. P. 37(a)(5)(A), require the party or the
attorney advising the party, or both to pay the movant’s reasonable expenses incurred in making the
motion. Shim-Larkin asserts that her “request for award of costs and expenses must be granted,”
pursuant to the provision of Rule 37 indicated above. In addition, she notes that, “since Defendant failed
to explain why or how such relief is unwarranted, [her request for the relief] is unopposed.”
Shim-Larkin contends that Saint-Fort’s assertion that “clarifying information” was provided via
Shim-Larkin’s explanation, on October 16, 2017, that the PAA’s supervisor, who was described in her
interrogatory no. 1 as “Possibly a sergeant, Caucasian male” was, instead, “likely a lieutenant,” is
untenable because “no reasonable person will believe that the change from ‘sergeant’ to ‘lieutenant’
made any difference as far as the degree of (purported) vagueness [the defendant alleges with respect to
the supervisor’s description Shim-Larkin provided and] there is no indication that Defendant made any
effort to locate ‘a sergeant’ before October 16,2017.” Shim-Larkin asserts that, in any event, as of
October 16, 2017, her interrogatory no. 1 was no longer vague in the defendant’s estimation, as the
defendant was able to commence its investigation based on the purportedly “vague” information ShimLarkin had provided.
With respect to the defendant’s assertion that the cases to which Shim-Larkin made citation,
“provide no guidance on the length of time that is considered to be reasonable in responding to a vaguely

-12-

G-12

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 13 of 26

worded request,” Shim-Larkin maintains that the defendant misapprehends the cited cases which explain
that a party’s failure to respond timely to a court-imposed discovery deadline, in the absence of a request
for an extension of time to respond, is unreasonable and a party that “is unable to respond to discovery
requests ... must clearly state so” to the adversary party. According to Shim-Larkin, in the case at bar,
the defendant completed the investigation it commenced in October 2017, into the identity of the PAA’s
supervisor, “[i]n February or March, 2018,” determined that it could not identify the supervisor but did
not advise Shim-Larkin of this in “February or March 2018, or even in April 2018.”
Shim-Larkin contends that Saint-Fort’s August 3, 2018 declaration was misleading, in that she
declared under penalty of perjury that “no Captain was assigned to the Thirteenth Precinct between
5:30p.m. and 8:00p.m.” on August 19, 2015. However, Saint-Fort omitted from her declaration that a
captain visited the precinct on that date. According to Shim-Larkin, Saint-Fort was obligated to provide
sufficient information, through her declaration, that would prevent the declaration from being misleading
and her failure to do so, as it relates to the presence of a captain at the 13th precinct on August 19, 2015,
although a captain was not assigned to that precinct, “evidences bad faith.”
Shim-Larkin also contends that the September 12, 2018 declaration submitted by Lt. Kalicovic is
misleading, in that the lieutenant “did not identify a specific title [he] held on August 19, 2015 ... to
mislead Plaintiff and the Court to believe that he was assigned to Special Operations Bureau, but not
assigned as a Special Operations Lieutenant.” This was done, according to Shim-Larkin, to prevent her
from determining “what his duties were and which policies were applicable to him”; these two factors,
Shim-Larkin asserts, would inform whether Lt. Kalicovic performed duties on August 19, 2015, in a
police department uniform.
DISCUSSION
A court’s “authority to impose sanctions is grounded, first and foremost, in [its] inherent power
to control the proceedings that take place before [the court].” Ransmeir v. Mariani. 718 F.3d 64, 68 (2d
-13-

G-13

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 14 of 26

Cir. 2013). A court’s inherent powers are “governed not by rule or statute but by the control necessarily
vested in courts to manage their own affairs so as to achieve the orderly and expeditious disposition of
cases.” Link v. Wabash R. Co.. 370 U.S. 626, 630-31, 82 S. Ct. 1386, 1389 (1962). Owing to the vety
potency of a court’s inherent powers, they must be exercised “with restraint and discretion.” Chambers
v. NASCO Inc.. 501 U.S. 32,44, 111 S. Ct. 2123,2132 (1991). Therefore, “a particularized showing of
bad faith [is needed] to justify use of the court’s inherent power.” U.S. v. Int’l Brotherhood of
Teamsters. Chauffeurs. Warehousemen and Helpers of Am.. AFL-CIO. 948 F.2d 1338, 1345 (2d Cir.
1991).
Rule 26(g) of the Federal Rules of Civil Procedure obligates an attorney to sign “every discovery
request, response, or objection.” Fed R. Civ. P. 26(g)(1). By doing so, the attorney “certifies that to the
best of the person’s knowledge, information and belief formed after a reasonable inquiry ... [the]
request, response or objection,... is ... not interposed for any improper purpose, such as to harass,
cause unnecessary delay, or needlessly increase the cost of litigation.” Fed. R. Civ. P. 26(g)(l)(B)(ii).
The obligation the Rule places on an attorney to make a reasonable inquiry “is satisfied if the [attorney’s
investigation] and the conclusions drawn therefrom are reasonable under the circumstances. It is an
objective standard .... In making the inquiry, the attorney may rely on assertions by the client... as
long as the reliance is appropriate under the circumstances . Ultimately, what is reasonable is a matter
for the court to decide on the totality of the circumstances.” Fed. R. Civ. P 26(g) Advisory Committee
Notes to the 1983 Amendment.
If an attorney’s certification violates Rule 26(g), without there being substantial justification for
the violation, a court on motion or on its own, “must impose an appropriate sanction on the signer, the
party on whose behalf the signer was acting, or both.” See Kosher Sports. Inc, v. Queens Ballpark Co,,
LLC. No. 10-CV-2618, 2011 WL 3471508, at *13 (E.D.N.Y. Aug. 5,2011). The sanction may include
an order to pay the reasonable expenses, including attorney’s fees, caused by the violation.” Fed. R. Civ.

-14-

G-14

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 15 of 26

P. 26(g)(3). Imposing a sanction pursuant to Rule 26(g) is appropriate if signing the response, request or
objection was objectively unreasonable. See Apex Oil v. Belcher Co. of New York. 855 F.2d 1009, 1015
(2d Cir. 1988). “The nature of the sanction [for violating Fed. R. Civ. P. 26(g)] is a matter ofjudicial
discretion to be exercised in light of the particular circumstances.” Fed. R. Civ. P. 26(g) Advisory
Committee Notes to the 1983 Amendment.
Rule 37(b)(2) of the Federal Rules of Civil Procedure permits a court to sanction a party that
“fails to obey an order to provide or permit discovery.” “[T]he reason for the failure to comply, and the
willfulness or good faith of the party, do not affect the fact of noncompliance and are relevant only to the
sanction to be imposed for the failure.” 8B Charles Allan Wright, Arthur R Miller & Richard L. Marcus,
Federal Practice & Procedure, Section 2283, at 431 (3d ed. 2010). Among the sanctions provided for in
Fed. R. Civ. P. 37(b)(2) is “directing that... designated facts be taken as established for the purpose of
the action.” Fed. R. Civ. P. 37(b)(2)(A)(i). However, Fed. R. Civ. P. 26(e) provides that a party “who
responded to an interrogatory ... must supplement or correct... its response ... in a timely manner if
the party learns that in some material respect the ... response is incomplete or incorrect, and if the
additional or corrective information has not otherwise been made known to the other parties during the
discovery process or in writing.” Fed. R. Civ. P. 26(e)(1)(A). “The obligation to update and supplement
responses [to discovery demands] continues even after the close of discovery.” Allen v. ColgatePalmolive. No. 79 Civ. 1076, 1985 WL 191, at 1 (S.D.N.Y. Jan. 14, 1985).
Title 28, United States Code, Section 1927, provides that: “[a]ny attorney ... who so multiplies
the proceedings in any case unreasonably and vexatiously may be required by the court to satisfy
personally the excess costs, expenses and attorneys’ fees reasonably incurred because of such conduct.”
“Imposition of a sanction under § 1927 requires a ‘clear showing of bad faith.’” Oliveri v. Thompson.
803 F.2d 1265, 1273 (2d Cir. 1986)(citation omitted). A sanction imposed under section 1927, like a
sanction imposed pursuant to the Court’s inherent power, “is proper when the attorney’s actions are so

-15-

G-15

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 16 of 26

completely without merit as to require the conclusion that they must have been undertaken for some
improper purpose such as delay.” Oliveri. 803 F.2d at 1273.
Perjury is a criminal offense. See 18 U.S.C. §§ 1621,1623. However, “[a] statement can be
false without being uttered with the scienter required to render it perjurious.” Margo v. Weiss. 213 F.3d
55, 63 (2d Cir. 2000). Scienter, in this context, means the “willful intent to provide false testimony, as
distinguished from incorrect testimony resulting from confusion, mistake, or faulty memory. Simple
inaccuracies or inconsistencies in testimony do not rise to the level of perjury.” U.S. v. Monteleone.
257 F.3d 210, 219 (2d Cir. 2001) (citations omitted).
The Court is mindful that “the submissions of a pro se litigant must be construed liberally and
interpreted to raise the strongest arguments that they suggest.” Triestman v. Federal Bureau of Prisons.
470 F.3d 471, 474 (2d Cir. 2006)(intemal quotation marks and citations omitted).
Defense Counsel’s Perjurious Declaration
Shim-Larkin alleges that several statements made by Saint-Fort in her August 3, 2018 declaration
are perjurious. The Court disagrees. At several points in her August 3, 2018 declaration, Saint-Fort
referenced August 15, 2015, as the date on which Shim-Larkin visited the 13th precinct, while also
reciting, in that same document, the actual date of Shim-Larkin’s visit, August 19,2015. Each recitation
of the incorrect visit date in the declaration, alleged by Shim-Larkin to be an instance of perjury, is
indicative, perhaps, of a failure on Saint-Fort’s part to proofread the declaration carefully. However,
Saint-Fort’s proofreading gaffe leading to the recitation of an incorrect date in her declaration cannot be
considered perjury, as nothing in the motion record establishes that Saint-Fort acted “with the scienter”
required to make the date misstatements perjurious. Margo. 213 F.3d at 63. Saint-Fort’s references to
the wrong visit date several times in her declaration were likely mistakes because she also recited the
correct visit date in that same document. The Court finds that Saint-Fort’s references to the wrong visit

-16-

G-16

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 17 of 26

date are “[sjimple inaccuracies or inconsistencies [which] do not rise to the level of perjury.”
Monte leone. 257 F.3d at 219.
According to Shim-Larkin, the police department’s Patrol Guide indicates that a Special
Operations lieutenant, such as Lt. Kalicovic, should wear a police department uniform, except where it is
not practical to do so. In Lt. Kalicovic’s declaration, Exhibit D to Saint-Fort’s declaration in opposition
to the instant motion, the lieutenant states that he did not wear a uniform on August 19,2015, while
performing his duties at the 13* precinct. Instead, the lieutenant asserts that he was attired in plain
clothes. The Court notes that Lt. Kalicovic does not deny wearing a white shirt on that date as part of his
plain clothes ensemble, and a white shirt is what Shim-Larkin contends the PAA’s supervisor wore on
that date. In any event, the motion record is barren of evidence establishing that it was practical for Lt.
Kalicovic to have been attired in a police uniform on August 19, 2015, while performing his duties at the
13* police precinct, and practicality is the standard Shim-Larkin maintains is prescribed by the Patrol
Guide. The Court finds that perjury cannot be ascribed to Saint-Fort for reporting, through her August 3,
2018 declaration, that Lt. Kalicovic was attired in plain clothes on August 19, 2015, while he performed
his duties at the 13* police precinct if that is what her investigation into the matter led Saint-Fort to
conclude, a conclusion that has now been corroborated by Lt. Kalicovic through his September 12, 2018
declaration.
Saint-Fort’s assertion that no police captain was assigned to the 13th precinct on August 19,
2015, alleged to be perjurious, is not contradicted by any evidence in the motion record. Although the
13* precinct Command Log referenced in the motion record indicates that a captain was present at the
13* precinct on August 19, 2015, being present at the precinct is not the same as being assigned to work
at the precinct. Accordingly, Saint-Fort’s assertion was not perjurious. For all the reasons noted above,
Shim-Larkin’s request, that the Court strike from the record Saint-Fort’s August 3, 2018 declaration, as a

-17-

G-17

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 18 of 26

sanction pursuant to Fed. R. Civ. P. 26(g), 37(b)(2)(A)(ii) or the Court’s inherent power, because the
declaration contains perjurious statements, is denied.
Rule 26fgl Violation
Shim-Larkin served the defendant with her first set of interrogatories in April 2017.
Interrogatory no. 1 of that first set of interrogatories, among other things, asked the defendant to identify
the PAA’s supervisor. The Court has found previously that the defendant responded to the interrogatory
untimely, see Docket Entry No. 119, and incompletely, see Docket Entry No. 319, in August 2017; for
example, the defendant’s response did not identify the PAA’s supervisor. The defendant’s August 2017
response to Shim-Larkin’s first set of interrogatories was signed by the defendant’s former counsel, Scott
Silverman (“Silverman”). By signing the defendant’s response, Silverman certified, pursuant to Fed. R.
Civ. P. 26(g)(1), that he had made a reasonable inquiry, that is, an “investigation ... reasonable under the
circumstances” into the matters addressed by the interrogatories including that portion of interrogatory
no. 1 pertaining to the identity of the PAA’s supervisor. Fed. R. Civ. P. 26(g) Advisory Committee Notes
to the 1983 Amendment.
The motion record establishes that Silverman’s certification was made without substantial
justification, because he did not make the requisite inquiry into the identity of the PAA’s supervisor
before signing the defendant’s August 2017 response to Shim-Larkin’s first set of interrogatories. This
is clear because at paragraph 16 of the declaration Saint-Fort submitted in opposition to the instant
motion, she states that the defendant did not commence its investigation into the identity of the PAA’s
supervisor until October 2017, two months after Silverman’s certification was made. The first
investigatory activity undertaken by the defendant, in October 2017, to ascertain the supervisor’s
identity, was retrieving the 13th precinct’s August 19, 2015 schedule.
According to Saint-Fort, on November 21, 2017, the defendant requested the 13th precinct’s
August 19, 2015 roll call covering the hours between 5:30 p.m. and 8:00 p.m. in an additional effort to

-18-

G-18

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 19 of 26

identify the PAA’s supervisor. The 13th precinct’s schedule and roll call are the defendant’s own records.
As such, it is likely they have been in the defendant’s possession, custody and control continuously, and
were available for inspection by the defendant at all times during this litigation including in April 2017,
when Shim-Larkin served her first set of interrogatories, and in August 2017, when Silverman signed the
defendant’s response to those interrogatories certifying, pursuant to Fed. R. Civ. P. 26(g)(1), that a
reasonable inquiry had been made before responding to the interrogatories.
In or about December 2017, the defendant interviewed 13th precinct police officers, lieutenants
and sergeants to locate the PAA’s supervisor. Saint-Fort’s declaration notes that, at about that same time,
the defendant decided to interview the most obvious source of information concerning the identity of the
PAA’s supervisor, the PAA with whom Shim-Larkin interacted on August 19, 2015.
It was not objectively reasonable for Silverman to sign the defendant’s response to ShimLarkin’s first set of interrogatories and thereby certify, in August 2017, that a reasonable inquiry had
been made by him into the identity of the PAA’s supervisor, when the defendant had not and would not
commence its investigation into the supervisor’s identity until two months later, in October 2017. By
certifying that a reasonable inquiry had been undertaken, when it had not been, Silverman violated Fed.
R. Civ. P. 26(g). The motion record is devoid of evidence establishing that substantial justification for
Silverman’s violation exists. Therefore, the Court finds that he acted in bad faith by making the
certification.
When a Fed. R. Civ. P. 26(g) certification violation occurs, without there being substantial
justification for the violation, the Court must impose an appropriate sanction on the violator, the.
violator’s client or on both. See Kosher Sports. 2011 WL 3471508, at *7. A sanction for violating Fed.
R. Civ. P. 26(g) does not require a finding of bad faith on the part of the violator. As noted above, the
analysis performed by a court, under Rule 26(g), is focused on the reasonableness of the violator’s
conduct under the circumstances. See Fed. R. Civ. P. 26(g) Advisory Committee Notes to 1983

-19-

G-19

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 20 of 26

Amendment. However, when a court finds bad faith exists in the particular circumstance before it, the
court may, in its discretion, also invoke its inherent power to sanction the bad faith conduct. See Int’l
Brotherhood of Teamsters. 948 F.2d at 1345.
The Court has determined that invoking its inherent power to impose a sanction here, is
warranted. This is so because: (1) Silverman acted in bad faith, when he made his certification, without
having made a reasonable inquiry; and (2) the defendant failed to launch an investigation into the
supervisor’s identity between April 2017 and October 2017, although it had access to the PAA and likely
had in its possession, custody and control, since the commencement of this action, the 13th precinctrelated records it used to initiate the investigation into the supervisor’s identity but delayed doing so until
approximately six months after Shim-Larkin requested that identity information via her first set of
interrogatories. The Court rejects, as untenable, the defendant’s suggestion that Shim-Larkin’s limited
description of the PAA’s supervisor delayed the commencement of or frustrated the progress of the
defendant’s investigation. The defendant did not need information from Shim-Larkin, such as the rank of
the supervisor, to retrieve its records and review them with the PAA, whose identity is set forth in ShimLarkin’s April 2017 first set of interrogatories, to enable the PAA to attempt to identify for the defendant
the law enforcement officer who supervised her on August 19,2015.
The Court is mindful that a party must supplement or correct “in a timely manner,” an
interrogatory response that is in some material respect incorrect or incomplete. Fed. R. Civ. P.
26(e)(1)(A). However, the supplementation complained of here, “new information” pertinent to
defendant’s investigation relevant to interrogatory no. 1 of Shim-Larkin’s first set of interrogatories, that
Shim-Larkin contends she received via Saint-Fort’s August 3, 2018 declaration, and the August 2018
disclosure of excerpts from the 13* precinct’s Command Log, was not accomplished in a timely manner.
The defendant’s investigation concluded in February or March of 2018 but the defendant did not inform
Shim-Larkin of that and did not make concomitantly with the conclusion of the investigation, the

-20-

G-20

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 21 of 26

supplemental information, at issue, available to her. The motion record does not establish why ShimLarkin did not receive in February or March 2018 the supplemental information pertinent to interrogatory
no. 1 that was revealed to her via Saint-Fort’s August 3,2018 declaration.
With respect to the excerpts of the 13* precinct’s Command Log disclosed to Shim-Larkin, the
defendant contends that Shim-Larkin revealed to it only on August 8, 2018, that the PAA’s supervisor
could have held the rank of captain or higher and, that as a result, that officer’s identity would not be
found in the precinct’s roll call but would be found in the precinct’s Command Log. This August 8, 2018
revelation prompted the defendant to seek the 13th precinct’s Command Log for August 19, 2015. The
defendant’s contention that it only learned from Shim-Larkin on August 8, 2018, that the PAA’s
supervisor could hold the rank of captain or higher is undermined by the record in this case. The record
establishes that Shim-Larkin advised the defendant, through a January 9, 2018 reply brief, Docket Entry
No. 181, and a July 20,2018 declaration, Docket Entry No. 340, that the PAA’s supervisor could hold
the rank of lieutenant or higher including the rank of captain because the supervisor wore a white shirt.
Inasmuch as the precinct’s Command Log is a document likely within the defendant’s possession,
custody and control and the defendant is fully aware of the contents of its own log, it is unclear why, if
acting in good faith, the defendant delayed from January 2018 to August 2018 to seek, obtain and search
the 13* precinct’s Command Log to determine whether the PAA’s supervisor might have held the rank of
captain or higher, as Shim-Larkin had advised it in January 2018.
Deposition of Lt. Kalicovic
Whether Lt. Kalicovic is the person who was supervising the PAAon August 19,2015, is not
certain. The defendant maintains that Shim-Larkin advised it on August 24,2018, via an email message,
that Lt. Kalicovic was the person supervising the PAA on August 19, 2015. The defendant is wrong.
Exhibit C to the declaration Saint-Fort submitted in opposition to this motion reveals that Shim-Larkin
stated only that she thought “the person whom my Interrogatory No. 1 sought might be Lieutenant
-21-

G-21

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 22 of 26

Kalicovic and Shim-Larkin asked the defendant to verify whether Lt. Kalicovic is the person who
supervised the PAA on August 19, 2015. (Emphasis added). The defendant’s delay in providing ShimLarkin supplemental information responsive to interrogatoiy no. 1 of her first set of interrogatories
timely, violated Fed. R. Civ. P. 26(e), was not justified and hampered her ability to determine whether to
depose Lt. Kalicovic before the close of discovery. As Shim-Larkin points out, although the lieutenant’s
surname appeared in the police report that was prepared based upon her visit to the 13th police precinct
on August 19, 2015, she did not know why his name appeared in the “NARRATIVE” section of that
report. Shim-Larkin also did not know and alleges she still does not know whether he is the person who
supervised the PAA.
Permitting Shim-Larkin to depose Lt. Kalicovic “to verify if Lt. Kalicovic is the person whom
[her] Interrogatory No. 1 sought” is reasonable and appropriate in the circumstance of this case. The
defendant’s delay in retrieving and providing Shim-Larkin with its records that identify the law
enforcement personnel who were present at the 13th precinct on August 19, 2015, and its delay in
interviewing its employees about the identity of the PAA’s supervisor contributed to Shim-Larkin’s
inability to make timely assessments about whom she ought to depose before the close of discovery. The
defendant’s attempt to explain its delay, until October 2017 to commence the investigation into the
identity of the PAA’s supervisor, by pointing to the description Shim-Larkin provided of that person
consisting of sex, race, color of shirt worn and possible rank, is to.no avail. This is so because without
possessing any more detailed information than that provided by Shim-Larkin, the defendant was able to
commence and complete its investigation including reviewing the 13th precinct’s roll call(s), Command
Log(s) and schedule(s) for August 19, 2015, and interviewing 13th precinct “Police Officers, Lieutenants,
Sergeants and Police Administrative Assistants [sic]” to attempt to determine the supervisor’s identity.
None of these investigatory activities depended upon input from Shim-Larkin, and nothing in the motion
record establishes that the records reviewed by the defendant and the police personnel interviewed by it

-22-

G-22

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 23 of 26

were not under the defendant’s control and available to it at all times during this litigation. Moreover,
according to Shim-Larkin, prior to the commencement of its investigation in October 2017, the defendant
“did not inform Plaintiff that it needs more information [from her] to start a search” into the supervisor’s
identity. This assertion by Shim-Larkin is not contradicted by any evidence in the motion record.
A violation of Fed. R. Civ. P. 26(e) occasioned by an untimely supplementation of an
interrogatory response is sanctionable under Fed. R. Civ. P. 37(c)(1); that sanction is generally, self­
executing. However, a court may impose an alternative sanction, in lieu of the self-executing sanction
set forth in the Rule, by exercising the wide discretion courts have in imposing sanctions under Fed. R.
Civ. P. 37. See Design Strategy. Inc, v. Davis. 469 F.3d 284,294 (2d Cir. 2006). Shim-Larkin urges the
Court to require the defendant to pay the costs associated with deposing Lt. Kalicovic as a sanction for
the defendant’s tardy response to interrogatory no. 1, its failure to comply with the Court’s order that the
defendant respond to interrogatory no. 1, by August 25,2017, without asserting objections and the
defendant’s refusal to verify whether Lt. Kalicovic is the supervisor whose identity interrogatory no. 1
sought to uncover. The Court declines to do so.
The Court has already sanctioned the defendant for not meeting its interrogatory response and
supplementation obligations as they relate to Shim-Larkin’s first set of interrogatories. See Docket Entry
No. 319. No basis exists for the Court to reconsider that sanction. Furthermore, “Rule 37 sanctions are
intended to restore the parties to the position they would have occupied but for the breach of discovery
obligations.” In re September 11th Liability Insurance Coverage Cases. 243 F.R.D. 114, 132 (S.D.N.Y.
2007). Shim-Larkin did not incur any deposition expenses with respect to Lt. Kalicovic, because she did
not depose him previously. In addition, this case does not present a situation where a party is forced to
reopen a deposition because of a late disclosure of discovery material, which would support shifting
discovery expenses from one party to its adversary. See, e.g., Owen v. No Parking Today, Inc.. 280
F.R.D. 106, 111 (S.D.N.Y. 2011). The Court finds that reopening discovery and permitting Shim-Larkin

-23-

G-23

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 24 of 26

to depose Lt. Kalicovic, if she wishes to do so, will place her in the position she would have been in had
the defendant made a reasonable inquiry into the supervisor’s identity and disclosed what Shim-Larkin
characterizes as the “new information” revealed through Saint-Fort’s August 3,2018 declaration, before
the close of discovery. Had the defendant done these things, Shim-Larkin would have been able to assess
the utility of deposing the lieutenant, before the close of discovery, and, if she determined that the
deposition was warranted, she would have borne the cost of that deposition.
In opposing the instant motion, the defendant did not offer any arguments against Shim-Larkin’s
request that she be provided, prior to any deposition of Lt. Kalicovic, copies of pertinent 13th precinct roll
calls, Command Logs and schedules and that, at the time of the deposition, the original of those
documents be produced to her. The Court finds these records are relevant to the claims and defenses
asserted and that the requests are reasonable and proportional to the needs of the case. See Fed. R. Civ.
P. 26(b)(1). Therefore, the requests are granted.
Deem Fact Established
Shim-Larkin has requested that the Court invoke Fed. R. Civ. P. 26(g) and 37(b)(2), as well as its
inherent power to deem established, for the purpose of this action, her assertion that she experienced an
anxiety attack while at the 13th police precinct on August 19, 2015 and that the anxiety attack was the
result of her co-worker’s assault. According to Shim-Larkin, this relief is warranted because the
“[defendant attempted to avoid its discovery obligation of providing identity of [the PAA’s supervisor]
through perjurious Saint-Fort Declaration]. A reasonable person will be able to infer from the fact that
Saint-Fort committed perjury that the identity of [the PAA’s] supervisor is both relevant and harmful to
Defendant.”
The Court has determined that Saint-Fort’s declaration is not perjurious and explained why
above; it will not repeat those reasons here. Therefore, the foundation, upon which Shim-Larkin relies, a
perjurious declaration, for the relief she seeks, a directive that a fact be deemed established for the

-24-

G-24

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 25 of 26

purpose of this action, is lacking. For that reason alone, the Court would be warranted in denying ShimLarkin’s request but other reasons exist that also justify denying the request. It appears, from the motion
record, that any anxiety attack Shim-Larkin experienced at the 13th precinct on August 19, 2015, was
witnessed both by the PAA and her supervisor who were situated in close proximity to each other.
Therefore, establishing that the anxiety attack occurred has never been dependant solely upon ShimLarkin’s learning, through the defendant’s response to interrogatory no. 1 of her first set of
interrogatories, the identity of the PAA’s supervisor. Evidence, aside from Shim-Larkin’s own testimony
that the anxiety attack occurred, as Shim-Larkin alleges, has always been potentially available to ShimLarkin from the PAA whose identity Shim-Larkin has known since at least April 2017, because ShimLarkin identified the PAA by her name in interrogatory no. 1 of her first set of interrogatories. In
addition, no medical evidence is in the motion record establishing that the anxiety attack Shim-Larkin
alleges occurred at the 13* precinct was caused by the assault Shim-Larkin contends her mini pool co­
worker perpetrated on her.
Sanctions
In accordance with Fed. R. Civ. P. 26(g)(3) and pursuant to the Court’s inherent power to control
the proceedings before it, for the Fed. R. Civ. P. 26(g) certification violation committed in this action, the
defendant and Silverman together shall, on or before February 13, 2019, pay Shim-Larkin $1,000. The
Court finds that the $1,000 sanction is not more severe than reasonably necessary to deter the defendant’s
counsel and the defendant specifically, and others similarly situated to them, generally from engaging in
bad faith conduct of the type described above in the future. That conduct frustrated, unjustifiably, the
just, speedy and economical progression of this action through the pretrial discovery phase of the
litigation. See Fed. R. Civ. P. 1. In a significant way, the Rule 26(g) certification violation prompted the
filing of the instant motion, as it contributed to the defendant’s delay in: 1) commencing its investigation
into the identity of the PAA’s supervisor; and 2) sharing the results of that investigation with Shim-

-25-

G-25

Case l:16-cv-06099-AJN-KNF Document 450 Filed 02/05/19 Page 26 of 26

Larkin timely, so that she might assess them in determining how to prosecute this action. As a
consequence, the defendant shall also pay to Shim-Larkin the reasonable expenses she incurred in
making the instant motion. On or before February 13, 2019, Shim-Larkin shall file evidence, via
affidavit or other means, of the reasonable expenses she incurred in making the motion. Any challenge
by the defendant to the reasonableness of the expenses shall be filed on or before February 27, 2019.
CONCLUSION
For the reasons set forth above, Shim-Larkin’s sanctions motion, Docket Entry No. 372, is
granted, in part, and denied, in part. The period for completing pretrial discovery activities is reopened,
until February 27, 2019, solely for the purpose of deposing Lt. Kalicovic.
SO ORDERED:

Dated: New York, New York
February 5, 2019

KEVIN NATHANIEL FOX
UNITED STATES MAGISTRATE JUDGE

shim-larkin.mo6

-26-

G-26

f Q

Case l:16-cv-06099-AJN-KNF Document 222

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
•X

(USDCSDNY
DOCUMENT
ELECTRONICALLY FILED
DOC #:___
DATE FILED:

HEENA SHIM-LARKIN,
Plaintiff,
ORDER
-against-

16-CV-6099 (AJN)(KNF)

CITY OF NEW YORK,
Defendant.
X
KEVIN NATHANIEL FOX
UNITED STATES MAGISTRATE JUDGE
A telephonic conference was held with counsel to the defendant and plaintiff pro se on March 13,
2018. As a result of the discussion had during the conference, IT IS HEREBY ORDERED that:
1.

on or before March 27, 2018, the defendant shall disclose to the plaintiff the telephone
number, if any, in its possession, custody or control for Mary Ng;

2.

on or before March 27,2018, the defendant shall provide to the plaintiff a declaration or
affidavit indicating that no policy, specific to the 13th police precinct, regarding the
maintenance and retention of video surveillance tapes for that precinct exists;

3.

on or before March 27, 2018, the defendant shall provide to the plaintiff an updated privilege
log, for those communications between the New York City Law Department and the New
York City Police Department occurring after April 3, 2017, that are germane to this action
which have been withheld from disclosure based upon a claim of privilege;

4.

on or before March 27, 2018, the defendant shall provide to the plaintiff a supplemental
response to the plaintiffs document request no. 18 of the plaintiffs seventh set of document
requests, indicating that the defendant has no documents in its possession, custody or control
regarding Hee Jung Shim;

5.

on or before March 27, 2018, the defendant shall supplement its response to the plaintiffs
document request no. 4 of the plaintiffs seventh set of document requests indicating,
definitively, that the defendant does not have in its possession, custody or control the

Appendix H

H-l

Case l:16-cv-06099-AJN-KNF Document 222 Filed 03/16/18 Page 2 of 3

grievance filed with the defendant’s Office of Labor Relations which underlines the June 28,
1996 stipulation of settlement that has previously been disclosed to the plaintiff in this action;
6.

on or before March 27, 2018, the defendant shall supplement its response to the plaintiffs
document request no. 3 of the plaintiffs tenth set of document requests indicating that the
defendant has disclosed the only biweekly lifeguard schedule in its possession, custody or
control;

7.

on or before March 27, 2018, if the defendant has in its possession, custody or control a
document(s) showing which PEP officer(s) had a fixed post at the Tompkins Square Mini
Pool on the days that PEP Officer Eric Love was off duty, the defendant shall disclose that
document(s) to the plaintiff and provide the plaintiff contact information for that PEP
officer(s);

8.

on or before March 27, 2018, the defendant shall disclose to the plaintiff the identity of the
superior officer(s) consulted by Philip Hirsh to prepare his declaration regarding the New
York City Police Department’s policy(ies) respecting the maintenance and retention of video
surveillance footage at police precincts and identify the record(s) that informed his
declaration;

9.

on or before March 27,2018, the plaintiff shall respond to the defendant’s document request
nos. 6 and 7 of its combined set of interrogatories and document requests which seeks
information pertinent to the plaintiffs job search efforts;

10.

on or before March 27, 2018, the defendant shall cause to be signed or verified any
interrogatory answer(s) previously submitted to the plaintiff without the signature of the
person who answered the interrogatory;

11.

the parties shall confer and, thereafter, on or before March 27, 2018, submit to the Court, for
its review and endorsement, a proposed protective order which will permit the disclosure by
the plaintiff to the defendant of her tax-related data showing, inter alia, the plaintiff’s income
and the source(s) of her income; and

-2-

H-2

Case l:16-cv-06099-AJN-KNF Document 222 Filed 03/16/18 Page 3 of 3

12.

the time for the parties to complete pretrial discovery activities is enlarged to May 11, 2018,
solely for the limited purpose of exchanging the above-referenced materials and
conducting any discovery-related activities germane to those materials.
SO ORDERED:

Dated: New York. New York
March 16, 2018

KEVIN NATHANIEL FOX
UNITED STATES MAGISTRATE JUDGE

-3-

H-3

1

34

PROCEEDINGS

2

reasonable steps if they have

3

and what was those reasonable steps.

4

same for 911 operator or 311 operator;

5

to set forth the details as stated and what efforts was

6

taken by defendant to locate those individuals.

7

they couldn't find them after reasonable steps, then it

8

has to be in a detailed affidavit.

9

took the reasonable steps
And I think it's
I think they have

And i f

And then Ms. Vargas Martin Kravitz introduced

10

Ms. Vargas to that female employee who was visibly

11

pregnant, so I think at least they have to ask Martin

12

Kravitz.

13

they have to write and sign it.

14

And if Martin Kravitz does not remember, then

THE COURT:

On the issue of the 311 operator,

I

15

don't know why the defendant's position is that that

16

person's identity is irrelevant, given that Ms. Shim-

17

Larkin has challenged the accuracy of the complaint

18

recorded in the 311 complaint form, given the statements

19

made by Ms. Vargas about what her complaint is or was

20

excuse me

21

extent that there is a conflict about what was reported

in some detail in an affidavit.

22 . and what was recorded by the 311 operator,
23

So to the

it is relevant.

With respect to the inability to identify the

24

person who is said to have been the pregnant parks

25

official or that no enforcement personnel were dispatched

Appendix I

Gmail - Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Motion for Sanctions

M Gmail

4/3/19, 8:17 PM

Hesrta Sham <heeETia.siilm@simall.conn;>

Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Motion
for Sanctions
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Aug 30, 2018 at 3:40 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered on 8/30/2018 at 3:40 PM EDT and filed on 8/30/2018
Case Name:
Shim-Larkin v. City of New York
Case Number:
1:16-cv-06099-AJN-KNF
Filer:
Heena Shim-Larkin
Document Number: 372
Docket Text:

MOTION for Sanctions . Document filed by Heena Shim-Larkin.(Shim-Larkin, Heena)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:

Appendix J

J-l

https://mail.goog le.com/mail/u/0?ik=21357f6659&view=pt&search=...=msg-f%3A1610254267421212300&simpl=msg-f%3A1610254267421212300

Page 1 of 2

Gmail - ^ctivity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Memorandum of Law in Support of Motion

M Gmail

4/3/19, 8:18 PM

Heena Shim <heena.shim@gmail.cam>

Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York
Memorandum of Law in Support of Motion
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Aug 30, 2018 at 3:41 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered on 8/30/2018 at 3:41 PM EDT and filed on 8/30/2018
Case Name:
Shim-Larkin v. City of New York
1:16-CV-06099-AJN-KNF
Case Number:
Filer:
Heena Shim-Larkin
Document Number: 373
Docket Text:

MEMORANDUM OF LAW in Support re: [372] MOTION for Sanctions .. Document filed by
Heena Shim-Larkin. (Shim-Larkin, Heena)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a

J-2
https://mail. google. com/mail/u/0?ik=21357f6659&view=pt&search = ...msg-f%3A1610254326975885496&simpl=msg-f%3A1610254326975885496

Page 1 of 2

4/3/19, 8:18 PM

Gmail - Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Declaration in Support of Motion

fv'l Gmail
Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York
Declaration in Support of Motion
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Aug 30, 2018 at 3:43 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered on 8/30/2018 at 3:43 PM EDT and filed on 8/30/2018
Shim-Larkin v. City of New York
Case Name:
Case Number:
1:16-cv-06099-AJN-KNF
Filer:
Heena Shim-Larkin
Document Number: 374
Docket Text:

DECLARATION of Heena Shim-Larkin in Support re: [372] MOTION for Sanctions ..
Document filed by Heena Shim-Larkin. (Attachments: # (1) Exhibit 1 - Command Log, #
(2) Exhibit 2 - Patrol Guide, # (3) Exhibit 3 - Email Communications)(Shim-Larkin, Heena)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document

J-3

https://mail.google.com/mail/u/0?ik=21357f6659&view=pt&search=...msg-f%3A1610254409229793772&simpl=msg-f%3A1610254409229793772

Page 1 of 2

Gmail - Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Memorandum of Law in Opposition to Motion

M Gmail

4/3/19, 8:21 PM

Hmc?. Bltkri

Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York
Memorandum of Law in Opposition to Motion
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Sep 13, 2018 at 12:42 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered by Saint-Fort, Dominique on 9/13/2018 at 1.2:42 PM EDT and filed on
9/13/2018
Case Name:
Shim-Larkin v. City of New York
Case Number:
1:16-CV-06099-A J N-KN F
Filer:
City of New York
Document Number: 378
Docket Text:

MEMORANDUM OF LAW in Opposition re: [372] MOTION for Sanctions .. Document filed
by City of New York. (Saint-Fort, Dominique)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document

J-4
https://mail.google.com/mail/u/0?ik=21357f6659&view=pt&search=a...=msg-f%3A1611511332025313967&simpl=msg-f%3A1611511332028313967

Page 1 of 2

Gmail - Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Declaration in Opposition to Motion

4/3/19, 8:21 PM

tv1 Gmail
Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York
Declaration in Opposition to Motion
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Sep 13, 2018 at 12:45 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered by Saint-Fort, Dominique on 9/13/2018 at 12:45 PM EDT and filed on
9/13/2018
Case Name:
Shim-Larkin v. City of New York
Case Number:
1:16-CV-06099-AJ N-KN F
Filer:
City of New York
Document Number: 379
Docket Text:

DECLARATION of Dominique F. Saint-Fort in Opposition re: [372] MOTION for Sanctions
.. Document filed by City of New York. (Attachments: # (1) Exhibit Plaintiffs August 6,
2018 Letter to Defendant, # (2) Exhibit Defendant's August 23, 2018 Letter to Plaintiff, #
(3) Exhibit Plaintiffs August 24, 2018 email to Defendant, # (4) Exhibit Declaration of
Bekim Kalicovic)(Saint-Fort, Dominique)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:

J-5
https://mail.google.com/mail/u/0?ik=21357f6659&view=pt&search=a...d=msg-f%3A1611511514679743277&simpl=msg-f%3A1611511514679743277

Page 1 of 2

Gmail - Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Reply Memorandum of Law in Support of Motion

fv'1 Gmail

4/3/19, 8:22 PM

HsfjiTa SiTfii'i:

Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Reply
Memorandum of Law in Support of Motion
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Sep 20, 2018 at 10:44 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered on 9/20/2018 at 10:44 PM EDT and filed on 9/20/2018
Shim-Larkin v. City of New York
Case Name:
Case Number:
1:16-CV-06099-AJ N-KN F
Filer:
Heena Shim-Larkin
Document Number: 381
Docket Text:

REPLY MEMORANDUM OF LAW in Support re: [372] MOTION for Sanctions .. Document
filed by Heena Shim-Larkin. (Shim-Larkin, Heena)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a

J-6
hftps://mail.google.com/mail/u/0?ik=21357f6659&view=pt&search=...msg-f%3A1612183406984362497&simpl=msg-f%3A1612183406984362497

Page 1 of 2

Gmail - Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York Declaration in Support of Motion

Is''! Gmail

4/3/19, 8:23 PM

Heena Shim <heena.shim@gmail.com>

Activity in Case 1:16-cv-06099-AJN-KNF Shim-Larkin v. City of New York
Declaration in Support of Motion
NYSD_ECF_Pool@nysd.uscourts.gov <NYSD_ECF_Pool@nysd.uscourts.gov>
To: CourtMail@nysd.uscourts.gov

Thu, Sep 20, 2018 at 10:47 PM

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this email because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of New York

Notice of Electronic Filing
The following transaction was entered on 9/20/2018 at 10:47 PM EDT and filed on 9/20/2018
Case Name:
Shim-Larkin v. City of New York
Case Number:
1:16-CV-06099-AJN-KNF
Filer:
Heena Shim-Larkin
Document Number: 382
Docket Text:

DECLARATION of Heena Shim-Larkin in Support re: [372] MOTION for Sanctions ..
Document filed by Heena Shim-Larkin. (Attachments: # (1) Exhibit 4 - Kalicovic
Testimony, # (2) Exhibit 5 - Desk Officer, # (3) Exhibit 6 - Duty Captain, # (4) Exhibit 7 Patrol Services Bureau, # (5) Exhibit 8 - List of Bureaus, # (6) Exhibit 9 - Special
Operations Bureau)(Shim-Larkin, Heena)
1:16-cv-06099-AJN-KNF Notice has been electronically mailed to:
Cassandra Natasha Branch &nbsp &nbsp cbranch@law.nyc.gov
Danielle Marie Dandrige &nbsp &nbsp ddandrig@law.nyc.gov
Dominique F. Saint-Fort &nbsp &nbsp dosaint@law.nyc.gov
Heena Shim-Larkin &nbsp &nbsp heena.shim@gmail.com
Scott Craig Silverman &nbsp &nbsp ssilverm@law.nyc.gov, Ssilverman55@gmail.com
1:16-cv-06099-AJN-KNF Notice has been delivered by other means to:

J-7
https://mail.google.com/mail/u/0?ik=21357f6659&view=pt&search = ...=msg-f%3A1612183641649979362&simpl=msg-f%3A1612183641649979362

Page 1 of 2

Case l:18-cr-00224-AJN

Document 379 Filed 09/16/20 Page 13 of 42

3. The number of AUSAs on the trial team (this case was tried by four Government

lawyers);
4. A failure to coordinate and effectively communicate with the Manhattan District

Attorney’s Office;
5. Failures to communicate between the AUSAs and the Special Assistant United
States Attorney appointed from DANY;
6. Breakdowns in communication between the FBI and line prosecutors, including
regarding the FBI’s investigation of this case;
7. Insufficient training of FBI agents and AUSAs on appropriate limits to searches

of electronic search-warrant returns;
8. Insufficient training for all participating AUSAs and the SAUSA on disclosure

obligations;
9. Insufficient policies in place that ensure timely and complete compliance with
disclosure obligations; and
10. Insufficient supervision of disclosure obligations by the USAO’s Unit Chiefs.
It is possible that the issues articulated above, as well as the precipitating factors the
Court identifies, are not unique to this case. Indeed, in the last criminal case tried before the
Undersigned, the Government also seriously breached its Brady obligations. See United States v.
Robert Pizarro, No. 17-cr-l 51 (AJN). Following that revelation, the Court was repeatedly
assured by the leadership of the US AO that the matter was being taken seriously, would be
systemically addressed through training, and would not reoccur. No. 17-cr-l 51 (AJN), Dkt. No.
135 at 8:11-10:10, 58:2-15. The record before the Court in this case belies those assurances.
It is impossible for the Undersigned alone to address and resolve these issues. Here too,
it is thus the Court’s view that these errors should be investigated by DOJ’s Office of
Professional Responsibility. Moreover, the manifold problems that have arisen throughout this
prosecution—and that may well have gone undetected in countless others—cry out for a
coordinated, systemic response from the highest levels of leadership within the United States
Attorney’s Office for the Southern District of New York. The Court implores the Acting United

Appendix K

13

■

K-l

Case l:18-cr-00224-AJN Document 379 Filed 09/16/20 Page 14 of 42

States Attorney to take seriously the numerous deficiencies set out in detail above and to take
action to ensure future prosecutions brought under the aegis of her office do not suffer from the
same. In that regard, the Court will prescribe her first order of business: the Acting United States
Attorney shall ensure that all current AUSAs and Special AUSAs read this Opinion.
III.

THE GOVERNMENT’S FAILURE TO DISCLOSE EXHIBIT 411
The Court next turns to a narrower set of concerns related to Government Exhibit 411.

The Court concludes that the Government failed to satisfy its disclosure obligations with respect
to this exhibit and then made a misrepresentation to the Court about its conduct. Unfortunately,
following the Government’s July 2 letter, there remain several significant open questions
regarding the Government’s conduct that this Court is obligated to resolve. As explained below,
further fact-finding by the Court is necessary.
A.

The Government Admits GX 411 is Exculpatory

Before diving into the Government’s failure to timely disclose GX 411, it is helpful to
catalogue the contents of this document and explain why the Government now concedes that it
has exculpatory value for Mr. Sadr.
The document that came to be known as Government Exhibit 411 is a 2011 letter from
the New York branch of Commerzbank, a German financial institution, to the Treasury
Department’s Office of Foreign Assets Control. See Dkt. No. 274-1 (GX 411). In this letter,
Commerzbank’s New York branch informs OFAC of an approximately $30 million payment
from.a Venezuelan entity to Stratus International Contracting Company. As noted, this payment
is the first payment charged in this case. The letter further provides information about Stratus
and notes that the “purpose of the payment is for the construction of a 7000 apartment unit
project” in Venezuela. Id. The letter goes on to say that “Although Stratus is not listed as an
SDN [Specially Designated National], and the payment does not indicate any direct involvement
14

K-2

